APPENDIX TO THE PETITION FOR A WRIT
OF CERTIORARI

TABLE OF CONTENTS
APPENDIX A
Judgment of the United States Court of Appeals
for the Third Circuit ( March 4, 2021 )

la-2a

APPENDIX B
Opinion of the United States Court of Appeals for the Third Circuit
3a-13a

(March 4th, 2021)
APPENDIX C
Opinions of the District Court for New Jersey
(March 25th 2020 )

14a-34a

Order of the District Court of New Jersey
(March 25th 2020 )

35a

Memorandum Opinion of the N.J. District Court
(March 22, 2016 )

36a-48a

Order of the District Court of N.J.
(March 22,2016)........................

49a - 50a

Memorandum Opinion of the N.J. District Court
(January 31, 2014).................... .......................

51a-64a

6/25/2010 fax cover sheets and attachments of Exhibits To Be Used
Against Custin at 6/28/2010 Appeal hearing

98a- 99a

Petitioner’s Objection during the proceedings to issues to be raised

100a-101a

7/6/2010 Decision of the NJDOL Appeals Tribunal

102a-103a

UIPLNo. 10-96 Transmittal To All State Employment Service Agencies

104a- 107a

Notification Of Appeal To The Board of Review

108a

“Pre-Hearing Review of Appeals To The Board of Review”

109a-110a

E mails and certification of Respondent’s Attorney “No Minutes and
no Agenda Ever Existed For Your Case”
12/19/2011 Certification of Respondents’ Counsel

111a- 112a
113a-114a

Portion of Respondent’s Brief on behalf of the Board of Review

115a

Respondent’s 4/13/2017 response to Magistrate’s Order To Respond To Rule
45 document subpoena requests

116a- 117a

Production Request 1 of Petitioner’s 12/14/2017 discovery
requesting a transcript or recorded proceedings of Petitioner’s 5/10/2010
initial claims hearing

118a

Respondent’s Answer to Production Request 1 above

119a

Order of the District Court of N.J.
65a

(January 31, 2014 )
APPENDIX D
Magistrate’s 2/8/201 7 Order on Petitioner’s Motion To Compel Answer
To Lawful Rule 45 subpoena, not allowing critical EWS subpoena
in regard to claimant’s second instance of unconstitutional conduct

66a-70a

Magistrate’s 11/15/2017 Order For Petitioner To Submit Remaining
Discovery Requests Stating The Relevance For Each Item by December
15,2017

71a

Magistrate’s March 6th 2018 Order that all of Petitioner’s 12/14/2018
Rule 33, 34, and 36 lawful discovery requests as Being “Mooted” Upon
Certification of Opposing Counsel that she she has “ already produced all
Responsive documents” to a Rule 45 document subpoena

72a

District Court Memorandum and Order Upon Petitioner’s Rule 52
Objection To “Mooting” all Rule 33, 34 ,and 36 lawful discovery on
certification of Opposing Counsel that she she has “produced all
responsive documents” under a Rule 45 document subpoena.....

73a-76a

Magistrate’s 8/20/2018 Denial of Petitioner’s Motion To Compel
Responsive Answers And Increase the Allowable Number of
Interrogatories

77a-79a

Magistrate’s 5/22/2019 order denying leave to file a Fourth Amended
Complaint in lieu of 3/6/2018 “mooting” of lawful discovery, denial
of Motion To Compel Answer to discovery served 4/12/2018, foreclosure
80a - 82a

of all fact discovery
Magistrate’s 2/5/2016 order 2/5/2016 order [ D.E. 125] ordering Defendants
responsive answer to Petitioner’s Fourth Set of Interrogatories and Admissions
Requests lawfully served on

APPENDIX E
5/10/2010 Initial Claims Examiner’s Notes

84a

Petitioner’s 6/7/2010 protest e mail protesting carry over of misconduct charge

85a

6/17/010 “Notice of a Telephone Hearing” setting two contradictory reasons for
Petitioner’s separation as “issues” for Wal-Mart’s 6/28/2010 appeal hearing

86a - 87a

6/21/2010 e mails to Appeals Tribunal objecting to the appeal hearing

88a - 89a

6/25/2010 e mail to Appeals Tribunal Petitioner will move to dismiss
at 6/28/2010 hearing

90a

7/12/2013 Declaration of TALX UC Express Custodian of Records

91a

5/24/2010 Wal-Mart’s protest letter requesting an appeal and
pleadings
“Exit Interview” attachment to Wal-Mart’s 5/24/2010 protest letter
“Attendance Record” attachment to Wal-Mart’s 5/24/2010 protest letter

92a-93a
94a
95a-96a

6/21/2013 certification of Patty Sager, Assistant Claims Manager
-TAEX/Equifax-authenticating-fax-confirmation. documents---- ---------

..... ...... 9.7a

TALX/Equifax authenticating fax confirmation documents

97a

Example of Respondents’ attorney 2/12/2018 answer to Petitioner’s 12/14/2017
Request For Admissions

120a-122a

Misrepresentation of Respondents’ attorney (“The Big Lie” ) in her
moving papers as to the testimony of Wal-Mart’s HR Manager at
the 6/28/2010 Appeals Tribunal Proceeding

123a-124a

Respondent’s Interrogatories 1 - 6 seeking discovery highly relevant
to discovering the origin of the misconduct connected to the work”
charge appearing on the initial claims and appeals notices

125a- 126a

Respondents’ non responsive answers to Interrogatories 1 - 6 ( above)
stating garbage objections, no objection on grounds of relevancy

127a-128a

1/16/2018 letter and certification of Respondents’ counsel to Magistrate

129a- 130a

3/5/2018 letter and certification of Respondents’ counsel to Magistrate

131a-132a

UIPLNo. 10-96 “Findings Must Be Supported by Substantial Evidence”

134a-135a

Respondents’ citing legal basis for Tribunals arbitrary 3 decisions in her
moving papers for Summary Judgment

136a

Original Monetary Determination For Petitioner’s Third UI claim

137a

Amended Monetary Determination For Petitioner’s Third UI Claim

138a

Respondents’ Attorney’s Certification of the Record on Appeal from
The Board of Review to the Appellate Division of the NJ Superior Court

139a-141a

12/14/2017 Genuineness Request For Admissions # 25 - Wal-Mart’s
5/24/2010 protest letter

142a

2/14/2017 Production Request #4 seeking any document that would
indicate that Wal-Mart originated the charge of “misconduct connected
to the work”

143a

Respondents’ 7/6/2017 letter objecting to Petitioner’s 6/30/2017 outstanding
party discovery
12/14/2017 Admissions Requests # 20 - #22

144a-147a
148a

4/11/2017 e mail correspondence with Respondents’ attorney in regard to
NJDOL FORM BC9

149a

12/14/2017 Admissions Requests #29 and #30 to attest to the genuineness
of 2 BC-9’s issued to Petitioner with Time and Date printed on them

150a -151a

Petitioner’s second instance in the record of Tribunal secretly accessing to
employer records and then using those documents against a claimant

152a-155a

Respondents’ 5/17/2016 letter to the Magistrate

156a-157a

CERTIFICATE OF SERVICE
I, John M. Custin hereby certify that 1 unbound copy of the foregoing Petition for Writ of
Certiorari in Custin v. Wirths et al., were sent via USPS Delivery confirmation to the U.S.
Supreme Court, and 1 bound copy was sent via USPS Priority Mail and email to the
following party listed below, this [July 28th, 2021] in accordance with the November 13th
2020 COVID 19 modifications to the deadline for filing and paper filing requirements.

(tracking # (

)

and email to the following party listed below, this [July 28th, 2021]:
Name of Respondent: Rimma Razhba D.A.G.
Title:
Deputy Attorney General
Address:
Office of the Attorney General NJ
Department of Law & Public Safety
Division of Law
R.J. Hughes Justice Complex
25 Market Street, P.O. Box 112
City, State Zip
Trenton, N.J. 08625
Executed on July 28, 2021.

Name of Petitioner:
Title:
Address:
City, State, Zip:

John M. Custin
Pro Se
P.O. Box 5631
Christiansted, VI 00823

e mail: jocustl00@yahoo.com

i
v
v;

0

%

'4

V

APPENDICES

ft-

1

k

1

U

1,
*

y

A*
\

t’
sss-t

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
SUMMARY ORDER

FOR THE COURT:
s/ Patricia S. Dodszuweit
Patricia S. Dodszuweit,
Clerk of Court

■sise*-

Case: 20-1837

Document: 22-1

Page: 1

Date Filed: 03/04/2021

- la -

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1837

JOHN M. CUSTIN,
Appellant
v.

HAROLD J. WIRTHS, STATE OF NEW JERSEY COMMISSIONER OF LABOR;
JOSEPH SIEBER, N.J. BOARD OF REVIEW;
GERALD YARBROUGH, N.J. BOARD OF REVIEW;
JERALD L. MADDOW, N.J. BOARD OF REVIEW;
HILDA S. SOLIS, U.S. SECRETARY OF LABOR;
JANE OATS, SECRETARY OF EMPLOYMENT & TRAINING;
SETH D. HARRIS, ACTING U.S. SECRETARY OF LABOR

On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. 2-12-cv-00910)
District Judge: Honorable Kevin McNulty

Submitted Pursuant to Third Circuit LAR 34.1(a)
February 12, 2021
Before: AMBRO, PORTER and SCIRICA, Circuit Judges

JUDGMENT

This cause came to be considered on the record from the United States District
Court for the District of New Jersey and was submitted pursuant to Third Circuit LAR
34.1(a) on February 12, 2021. On consideration whereof, it is now hereby----------

Case: 20-1837

Document: 22-1

Page: 2

Date Filed: 03/04/2021

- 2a -

ORDERED and ADJUDGED by this Court that the judgment of the District Court
entered March 26, 2020, be and the same is hereby affirmed. Costs taxed against the
appellant. All of the above in accordance with the opinion of this Court.
ATTEST:

s/ Patricia S. Dodszuweit
Clerk
Dated:

March 4, 2021

2

ri

APPENDIX
APPENDIX B
Case # 20-1837
UNITED STATES COURTS OF APPEALS
FOR THE THIRD CIRCUIT

John M. Custin,
Plaintiff-Appellant,
v.
Harold J. Wirths,et al.
Defendants/Appellees.

On Appeal from the United States District Court
For New Jersey

Opinion of the Third Circuit
John M. Custin
P.O.Box 5631
Christiansted, VI 00823

Xl

r

Case: 20-1837

Document: 21

Page: 1

Date Filed: 03/04/2021

- 3a NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1837

JOHN M. CUSTIN,
Appellant
v.

HAROLD J. WIRTHS, STATE OF NEW JERSEY COMMISSIONER OF LABOR;
JOSEPH SIEBER, N.J. BOARD OF REVIEW;
GERALD YARBROUGH, N.J. BOARD OF REVIEW;
JERALD L. MADDOW, N.J. BOARD OF REVIEW;
HILDA S. SOLIS, U.S. SECRETARY OF LABOR;
JANE OATS, SECRETARY OF EMPLOYMENT & TRAINING;
SETH D. HARRIS, ACTING U.S. SECRETARY OF LABOR

On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. 2-12-cv-00910)
District Judge: Honorable Kevin McNulty

Submitted Pursuant to Third Circuit LAR 34.1(a)
February 12, 2021
Before: AMBRO, PORTER and SCIRICA, Circuit Judges
(Opinion filed: March 4, 2021)

tA

Case: 20-1837

Document: 21

Page: 2

Date Filed: 03/04/2021

- 4a -

OPINION*
PER CURIAM
Appellant John Custin, proceeding pro se, appeals from the District Court’s orders
dismissing his complaint in part and granting summary judgment on the remaining claims
in an action he brought pursuant to 42 U.S.C. § 1983. For the following reasons, we will
affirm.
In April 2010, Custin was discharged by Walmart Stores, Inc., after two years of
employment. Over the next two years, he filed four separate claims for benefits under the
New Jersey Unemployment Compensation Law, N.J.S.A. § 43:21-1, et seq., each of
which was ultimately denied. In February 2012, Custin filed this action. The operative
third amended complaint sought relief against the Commissioner of the State of New
Jersey Department of Labor and Workforce Development (NJDOL) and three members
of the Department of Labor’s Board of Review (collectively the state defendants), and the
former and acting U.S. Secretary of Labor and the U.S. Secretary of Employment and
Training Administration (collectively the federal defendants). Custin alleged that, in
their administration of the unemployment compensation program, the state defendants
violated the Social Security Act (SSA), as well as his Fourteenth Amendment due process
rights and Eighth Amendment right to be free of excessive fines. Custin also challenged
the constitutionality of 20 C.F.R. § 615.8(c)(2) and N.J.S.A. § 43:21-5(b). Finally, he

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.
2

Case: 20-1837

Document: 21

Page: 3

Date Filed: 03/04/2021

■ 5a •

sought to enjoin the federal defendants from continuing to certify or provide federal
funding for New Jersey’s unemployment compensation program.
In January 2014, the District Court dismissed the claims against the federal
defendants. See ECF No. 82 & 83. It subsequently dismissed, under Fed. R. Civ. P.
12(b)(6), all of the claims against the state defendants except the due process claims.1
See ECF No. 130 & 131. In an order entered March 26, 2020, the District Court granted
the state defendants’ motion for summary judgment on the due process claims, and this
appeal ensued. See ECF No. 253 & 254.
We have jurisdiction over this appeal pursuant to 28 U.S.C. § 1291. We exercise
plenary review over the District Court’s dismissal of the claims for failure to state a claim
for relief, see Gelman v. State Farm Mut. Auto. Ins. Co., 583 F.3d 187, 190 (3d Cir.
2009), and over its grant of summary judgment, see Groman v. Twp. of Manalapan, 47
F.3d 628, 633 (3d Cir. 1995). Summary judgment is proper where, viewing the evidence
in the light most favorable to the nonmoving party and drawing all inferences in favor of
that party, there is no genuine issue of material fact and the moving party is entitled to
judgment as a matter of law. Fed. R. Civ. P. 56(a); Kaucher v. County of Bucks, 455
F.3d 418, 422-23 (3d Cir. 2006).
We first affirm the dismissal of the claims against the federal defendants.
Pursuant to the Social Security Act of 1935, 42 U.S.C. § 501 et seq., unemployment

1 In the same order, the District Court dismissed all claims against the NJDOL; however,
•because the agency was notnamed as a defendant in the third amended complaint, we do
not address Custin’s argument on appeal that the claims against NJDOL were dismissed
in error.
3

Case: 20-1837

Document: 21

Page: 4

Date Filed: 03/04/2021

- 6a compensation is provided through a cooperative federal-state program. See California
Dep’t. of Human Resources Development v. Java, 402 U.S. 121, 125 (1971). Although
the United States partially funds the programs, the states are responsible for establishing
eligibility requirements and making individual eligibility determinations. See 26 U.S.C.
§ 3304(a); 42 U.S.C. § 503. The Secretary of Labor annually certifies state programs
after confirming that they conform to federal requirements. Java, 402 U.S. at 125.
Custin claimed that the federal defendants violated his constitutional rights by continuing
to certify New Jersey’s unemployment compensation program as compliant with federal
law “when it was not.” In particular, Custin claimed that the state failed to comply with
the federal requirements that its program provide “full payment of unemployment
compensation when due,” and the “[opportunity for a fair hearing, before an impartial
tribunal,” when benefits are denied. 42 U.S.C. § 503(a)(1), (3).
The District Court properly concluded that Custin lacked standing to pursue this
claim because there was no causal connection between the certification of New Jersey’s
unemployment compensation benefits program and the injury alleged in the complaint,
which, contrary to Custin’s contention on appeal, was the alleged improper denial of his
benefits claims and an ensuing financial fallout. See Lujan v. Defenders of Wildlife, 504
U.S. 555, 560 (1992) (noting the well-recognized elements of Article III standing,
including a “causal connection between the injury and the conduct complained of’). In
his complaint, Custin did not allege any facts suggesting that the state’s unemployment
compensation program was non-compliant with federal law; instead, he alleged only
defects in the process by which the state denied his claims for benefits. Neither the
4

Case: 20-1837

Document: 21

Page: 5

Date Filed: 03/04/2021

- 7aSecretary of Labor nor the Secretary of Employment and Training Administration is a
proper defendant under the facts as alleged. Id (noting that the alleged injury must be
“fairly . . . trace[able]” to the defendant’s actions) (citation omitted); cf Java, 402 U.S. at
135 (enjoining enforcement of California unemployment law as inconsistent with federal
“when due” requirement where defendants were California Department of Human
Resources Development and other state defendants).
Turning to the claims against the state defendants, Custin argues that the District
Court used the wrong standard in evaluating his due process claims. We disagree. A
claimant has a property interest in unemployment compensation benefits which is
protected by the Fourteenth Amendment’s Due Process Clause. See Wilkinson v.
Abrams. 627 F.2d 650, 664 (3d Cir. 1980). The District Court cited and properly applied
Supreme Court decisions outlining “the essential requirements of due process,” including
the right to “notice and opportunity to respond,” “the opportunity to be heard at a
meaningful time and in a meaningful manner,” and the right to “an impartial and
disinterested tribunal.” See ECF No. 253 at 13 (citing and quoting Cleveland Bd. of
Educ. v. Loudermill, 470 U.S. 532, 546 (1985), Mathews v. Eldridge, 424 U.S. 319, 332
(1976), and Marshal v. Jericho, 446 U.S. 238, 242 (1980)). The District Court also
looked to analogous administrative cases to guide it in applying these principles to the
unemployment compensation context.2 See, e.g., DeBlasio v. Zoning Bd. of Adjustment

2 Contrary to Custin’s argument on appeal, this case is not analogous to Shaw v. Valdez,
819 F.2d 965, 968 (10th Cir. 1987). Shaw challenged the state’s procedures as
_
violative of the “fair hearing” requirement of the SSA, 42 U.S.C. § 503(a)(3). Id. at 966.
Although Custin purported to do the same, as discussed supra, the factual allegations in
5

Case: 20-1837

Document: 21

Page: 6

Date Filed: 03/04/2021

- 8a for Twp. of West Amwell. 53 F.3d 592 (3d Cir. 1995). Custin appears to argue that the
District Court should have separately analyzed whether he was denied a “fair hearing”
under 42 U.S.C. § 503(a)(3); but a separate analysis was not necessary as the
requirements of due process and § 503(a)(3) are co-extensive. See Cosby v. Ward, 843
F.2d 967, 982 (7th Cir. 1988) (“Whether the statutory ‘fair hearing’ requirement has been
met is tested by the same standards as constitutional procedural due process.”) (citation
omitted); Ross v. Horn, 598 F.2d 1312, 1318 n.4 (3d Cir. 1979) (assuming the same).3
In his brief, Custin focuses on his due process claims stemming from the denial of
his first claim for unemployment benefits made in April 2010. Initially, the Deputy
Director of the Division of Unemployment and Disability Insurance determined that
Custin was eligible for benefits. Walmart appealed and, during a telephonic hearing
before the Appeals Tribunal on June 28, 2010, argued that Custin was ineligible for
benefits because he was dismissed for misconduct. See N.J.S.A. § 43:21-5(b) (2007)
(disqualifying individuals for unemployment compensation benefits “for the week in
which the individual has been suspended or discharged for misconduct connected with
the work, and for the five weeks which immediately follow that week”). A personnel
manager from Walmart testified that Custin was discharged from employment because he

his complaint support only a claim that he was denied a fair hearing.
3 To the extent that Custin challenges the District Court’s discovery rulings as erroneous
and adversely affecting his due process claims, we find no abuse of discretion. See
-Anderson-v—Wachovia-MoFtg-Corp..-621-F.3d-261,-28-L(3d-Cir,-201Q)-(!lWe_reyjew_a__
district court’s discovery orders for abuse of discretion, and will not disturb such an order
absent a showing of actual and substantial prejudice.”).
6

Case: 20-1837

Document: 21

Page: 7

Date Filed: 03/04/2021

- 9a violated the company’s callout policy by failing to notify Walmart of his absences for
five consecutive days that he was scheduled to work in April 2010. Under the policy,
employees were required to call a 1-800 number prior to their shift to advise that they
would be absent; employees then received a verification number as proof of their call and
were directed to their local Walmart store to speak to a manager. Custin testified that he
was aware of the callout policy and that, on each of the days in question, he tried to call
the hotline but he was disconnected because “there [wa]s something wrong with it,” and
he tried to call the local store but no one picked up. The manager testified that there were
no problems reported with the phone system and other employees properly called out on
those days. During her testimony, the manager referred to two documents which were
provided to the hearing examiner in advance of the hearing, an “exit interview” indicating
that Custin was “rehirable,” and an “attendance report” indicating the dates of Custin’s
absences from work.
The hearing examiner determined that Custin was discharged for misconduct
based on his failure to properly notify Walmart of his absences and that, as a result, he
was ineligible for benefits under § 43:21-5(b) for the period from April 18, 2010 to May
29, 2010. See N.J.S.A. § 43:21-5(b) (defining “[m] isconduct” to include “conduct which
is improper, intentional, connected with the individual's work, within the individual's
control, not a good faith error of judgment or discretion,” including the “deliberate
refusal, without good cause, to comply with the employer's lawful and reasonable rules
made known to the employee”). Custin appealed, first to the NJDOL Board of Review,

7

Case: 20-1837

Document: 21

Page: 8

Date Filed: 03/04/2021

- 10a which affirmed the Tribunal, and then to the Appellate Division of the Superior Court of
New Jersey, which affirmed the Board’s decision.
In his complaint, Custin claimed that his due process rights were violated because
he did not receive notice of his right to appeal the Appellate Tribunal’s decision, he was
not provided copies of the “exit interview” and “attendance report” referenced in the
hearing, and the Board of Review upheld the decision without copies of those documents.
Custin also alleged that the hearing examiner was required to find malicious intent to
sustain a misconduct charge.4
We agree with the District Court that Custin received all of the process that he was
due in these initial proceedings. Custin was given notice, both of the hearing before the
Appellate Tribunal, and of Walmart’s claims, and he was afforded an opportunity to rebut
those claims. See FTC v. National Lead Co., 352 U.S. 419, 427 (1957) (noting that “the
requirements of a fair hearing include notice of the claims of the opposing party and an
opportunity to meet them”). As the Superior Court indicated in affirming the denial of
benefits, “Custin was well aware of Walmart’s position that he had been separated from
work for misconduct.” ECF No. 233-13 at 13. The Court noted that when Custin first

4 In its opinion, the District Court outlined numerous other procedural defects stemming
from these proceedings which Custin raised for the first time in his Statement of Material
Facts. See ECF No. at 14-16. These claims were not properly before the District Court.
See Shanahan v. City of Chicago. 82 F.3d 776, 781 (7th Cir. 1996) (“A plaintiff may not
amend his complaint through arguments in his brief in opposition to a motion for
summary judgment.”); Trishan Air. Inc, v. Federal Ins. Co.. 635 F.3d 422, 435 (9th Cir.
-201-l-)-(noting-that—summary-judgment.is.not.a.procedural.second chance_to_flesh_qut__
inadequate pleadings”) (citation omitted). In any event, for the reasons provided by the
District Court, these alleged procedural defects do not amount to due process violations.
8

Case: 20-1837

Document: 21

Page: 9

Date Filed: 03/04/2021

- 11a applied for unemployment benefits, the notice scheduling an appointment with a claims
examiner indicated “in bold letters” that “the reason for his appointment was that he may
have been separated for misconduct in connection with his work.” Id. at 13-14. It further
noted that, when Walmart appealed, Custin received a copy of the notice of the Appeal
Tribunal hearing, “which explicitly stated that the issues involved were ‘voluntary
leaving’ and ‘discharge for misconduct.’” Id. at 14. Finally, at the start of that hearing,
the examiner indicated that “[t]he issues to be resolved were the issue of discharge for
misconduct and the issue of voluntary leaving.” Id. Custin gave no indication that he
was unprepared to meet those charges.
At the Appeal Tribunal hearing, Custin was also provided an opportunity to
present evidence and testify on his own behalf, and to cross-examine Walmart’s
personnel manager. See ECF No. 233-11. Neither the failure to provide Custin with
copies of the exit interview or attendance record, nor the failure to make those documents
part of the record on appeal, rendered the proceedings fundamentally unfair. Custin
readily admitted in his testimony that he was absent on the days in question. And
Walmart’s personnel manager testified that, according to the exit interview, Walmart was
willing to rehire Custin; that testimony was part of the record on appeal. The mere fact
that Walmart was willing to rehire Custin did not negate the hearing examiner’s finding
that Custin was discharged for misconduct. Furthermore, the hearing examiner was not
required to find malicious intent to disqualify Custin for misconduct. Cf N.J.S.A.
§ 43:21-5(b) (2015) (providing malicious behavior as an example of “severe

9

Case: 20-1837

Document: 21

Page: 10

Date Filed: 03/04/2021

- 12a misconduct”)-5 As the Superior Court observed, the determination that Custin failed to
properly notify Walmart of his absences constituted misconduct at the time under
N.J.A.C. § 12:17-10.3. See ECF No. 233-13. Finally, Custin exercised his right to
appeal to the Board of Review and, from there, to the Superior Court, which addressed
his due process claims. Because Custin was afforded all of the procedural safeguards
required for a fair hearing and received meaningful review through the appellate process,
summary judgment was warranted on these due process claims.
The District Court also properly denied Custin’s due process claims arising from
the denial of his second, third, and fourth claims for unemployment compensation
benefits because he failed to avail himself of all the processes available to him. See
Alvin v. Suzuki. 227 F.3d 107, 116 (3d Cir. 2000) (“In order to state a claim for failure to
provide due process, a plaintiff must have taken advantage of the processes that are

5 Custin sought to challenge N.J.S.A. § 43:21-5(b), arguing that it “enables an employer
to disqualify a claimant for benefits for being a malicious employee while in the same
breath stating in testimony that he is rehirable.” ECF No. 38 at 6. But as the District
Court concluded, Custin failed to allege how the statute violates 42 U.S.C. § 503(a)(1),
the provision of the SSA requiring state unemployment compensation programs to
provide for payment of benefits “when due.” We likewise agree that there is no merit to
Custin’s challenge to the validity of N.J.S.A § 21-24(19), which deems claimants
ineligible for extended unemployment benefits if they failed to accept any offer of, or to
apply for, suitable work, or if they failed to actively seek suitable work. Custin argued
that the statute “disqualifies claimants twice on the same charge on the original claim
even before that original disqualification has been heard on appeal.” We see no basis for
finding this statute violative of the SSA or the due process clause, neither of which
requires the payment of benefits while an appeal from the denial of benefits is pending.
Cf. Java. 402 U.S. at 133 (finding section of state unemployment insurance code
providing for suspension of allowed benefits pending the employer’s appeal violative of
-the SSA’s “when due” clause). For the same reasons, Custin’s challenge to 20 C.F.R.
§ 615.8(c)(2), which was based on similar arguments, fails.
10

I

Case: 20-1837

Document: 21

Page: 11

Date Filed: 03/04/2021

- 13a available to him or her, unless those processes are unavailable or patently inadequate.”).
In particular, for each of these benefits claims he failed to appeal the final decisions of
the Appeals Tribunal to the Board of Review. See N.J.S.A. § 43:21-6 (setting forth the
appeal procedures in unemployment compensation proceedings). Custin did not
explicitly allege that the state processes were unavailable or inadequate. The District
Court, construing the pro se pleadings liberally, identified a dozen allegations of
procedural defects in the appellate process. See ECF No. 253 at 10-11. But as the
District Court explained, most of the alleged defects could have been raised on appeal to
the Board of Review, and none of them would amount to interference with the appellate
process or render it a sham. See Alvin. 227 F.3d at 118 (“When access to procedure is
absolutely blocked or there is evidence that the procedures are a sham, the plaintiff need
not pursue them to state a due process claims.”).
Finally, we agree with the District Court that Custin alleged no basis for relief
under the Eighth Amendment. See Browning-Ferris Indus, v. Kelco Disposal, 492 U.S.
257, 262 (1989) (holding that the Eighth Amendment applies “primarily, and perhaps
exclusively, to criminal prosecutions and punishments” and does not apply to punitive
damages in a civil suit).
For the foregoing reasons, we will affirm the District Court’s judgment.

11

APPENDIX
APPENDIX C
Case # 12cv910
UNITED STATES DISTRICT COURT
FOR NEW JERSEY

John M. Custin,
Plaintiff-Appellant,
v.
Harold J. Wirths,et al.
Defendants/Appellees.

The United States District Court
For New Jersey

Opinions of the District Court of New Jersey
John M. Custin
P.O.Box 5631
Christiansted, VI 00823

- 15a -

APPENDIX C

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 1 of 21 PagelD: 3342
- 14a -

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
JOHN M. CUSTIN,
Plaintiff,
v.

Civ. No. 2:12-CV-910-KM-MAH

HAROLD J. WIRTHS, JOSEPH SIEBER,
GERALD YARBROUGH, JERALD L.
MADDOW, et al.,

OPINION

Defendants.

MCNULTY. U.S.D.J.:
The plaintiff, John M. Custin, alleges that various New Jersey state
officials deprived him of his constitutional right to due process in the course of
denying his claims for unemployment benefits. Defendant Harold J. Wirths was
the Commissioner of the New Jersey Department of Labor, and Defendants
Joseph Sieber, Gerald Yarbrough, and Jerald Maddow were members of the
Board of Review for unemployment claims. These defendants, represented by
the New Jersey Attorney General’s office, collectively move for summary
judgment as to the remaining claims against them.
In two previous opinions on this matter, I dismissed several claims
against these defendants as well as against other parties. (DE 82, 130).
Familiarity with those prior opinions is assumed. This motion for summary
judgment addresses all remaining due process claims. The accompanying order
invites the parties to identify any issue which they believe remains open and
undecided.
Defendants contend that Custin has not raised a triable issue of fact that
would demonstrate his due process rights were violated in the course of any of
his claims for unemployment benefits. For the reasons herein, Defendants’
■m'otion“will“be_granted:-----------------------------------------------------------------------------------1

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 2 of 21 PagelD: 3343
- 15a-

1. Background1
Plaintiff John M. Custin filed a lawsuit alleging a variety of harms
relating to denial of his multiple claims for unemployment benefits. (DSMF | 1).
The remaining Defendants are Harold Wirths, Joseph Sieber, Gerald
Yarbrough, and Jerald Maddow (the “State Defendants”). (DSMF | 6). The suit
was filed against a number of federal and state officials, but the only remaining
claim is one under 42 U.S.C. § 1983 against the State Defendants in their
individual capacities. (DSMF || 2, 6)). Defendant Wirths was the Commissioner
of the New Jersey Department of Labor, and Defendants Sieber, Yarbrough,
and Maddow were members of the Board of Review for unemployment claims.
(DSMF If 8).
Custin was discharged from employment at Wal-Mart on April 26, 2010.
(DSMF | 12). Thereafter, he filed a claim for unemployment benefits with the
New Jersey Department of Labor, Division of Unemployment Insurance. (Id.).
Initially, a Deputy Director of the Division of Unemployment Insurance deemed
Custin eligible for unemployment benefits. (DSMF ^f 13). However, Wal-Mart
appealed this determination to the Appeal Tribunal. (DSMF Tf 14). The Appeal
Tribunal is the first appellate level within the New Jersey Department of Labor

1
For purposes of this motion, I consider the State Defendants’ statement of
material facts (“DSMF”) (DE 233), Plaintiff SSC’s responsive statement of material facts
(“PRSMF”) (DE 245), Plaintiffs separately numbered counter statement of facts
(“CSMF”) (DE 245), as well as documentary evidence. Facts not contested are assumed
to be true.
Record items cited repeatedly will be abbreviated as follows:
AT Transcript= Transcript from Appeal Tribunal hearing on June 28, 2010 (DE
233-11)
AG Cert. = Certification of Rimma Razhba (counsel for State Defendants) (DE
233-5)
PL Opp. = Plaintiff John M. Custin’s brief in opposition to State Defendants’
motion (DE 244)

2

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 3 of 21 PagelD: 3344
- 16a for deciding unemployment and temporary disability benefit disputes. (DSMF |
8).
Custin received a notice scheduling the appeal for a telephone hearing on
June 28, 2010. (DSMF | 15). This notice specified two charges: “voluntary
leaving” and “discharge for misconduct.”2 (Id.). During that hearing on June
28, 2010, a hearing officer heard testimony from Custin and a personnel
manager from Wal-Mart, Beverly Shuck.3 Custin was given an opportunity to
cross-examine Shuck during the hearing. (DSMF If 17). The hearing officer
explained that the issues to be resolved were “voluntary leaving” and “discharge
for misconduct.” (DSMF If 18). Shuck testified that Custin was terminated for
being a “no call no show” for five consecutive days on which he was scheduled
2
The applicable statute, effective as of the time of Custin’s application for
benefits, reads in relevant part as follows:
An individual shall be disqualified for benefits:
(a) For the week in which the individual has left work voluntarily without good
cause attributable to such work, and for each week thereafter until the
individual becomes reemployed and works four weeks in employment, which
may include employment for the federal government, and has earned in
employment at least six times the individual's weekly benefit rate, as
determined in each case. This subsection shall apply to any individual seeking
unemployment benefits on the basis of employment in the production and
harvesting of agricultural crops, including any individual who was employed in
the production and harvesting of agricultural crops on a contract basis and who
has refused an offer of continuing work with that employer following the
completion of the minimum period of work required to fulfill the contract.
(b) For the week in which the individual has been suspended or discharged for
misconduct connected with the work, and for the five weeks which immediately
follow that week, as determined in each case. In the event the discharge should
be rescinded by the employer voluntarily or as a result of mediation or
arbitration, this subsection (b) shall not apply, provided, however, an individual
who is restored to employment with back pay shall return any benefits received
under this chapter for any week of unemployment for which the individual is
subsequently compensated by the employer .
N.J. Stat. Ann. § 43:21-5 (eff. December 9, 2007 to June 30, 2010).
3_____ Custin refers to this individual as “Shupp” or “Schupp,” but her name is listed
in the Appeal Tribunal transcript and Defendants’ briefing as “Shuck.”
3

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 4 of 21 PagelD: 3345
- 17ato work: April 17, 19, 21, 22, and 23, 2010.4 (DSMF H 19). She explained that
Wal-Mart’s policy required employees to call a designated number prior to the
start of their scheduled shift if they anticipated being absent. (DSMF U 20).
Custin testified that he was aware of this call-out procedure. (DSMF If 23). In
his testimony, Custin admitted that that he did not report to work on April 17,
19, 21, 22, and 23, 2010. (DSMF U 22). Further, he testified that he had used
these call-out procedures successfully in the past without issue. (DSMF If 28).
His defense of his actions was that he attempted to call the designated
number on each of the five days but was unable to connect. (DSMF H 24). He
also attempted to call the store at which he worked, he said, but no one picked
up there, either. (DSMF H 25). He could not provide any telephone records or
other verification of his attempts to call the store or the designated number.
(DSMF U 26). When asked about his failure to successfully call out, Custin
replied that he thought he did as much as he had to do. (DSMF K 29). In
response to his contention that the phone system was not working, Shuck
responded that no other employee had reported issues with the system “that
day.”5 (AT Transcript at 20). The examiner also referred to two documents sent
to her by Wal-Mart: an exit interview with Plaintiff and his attendance record.
(DSMF H 31). While Custin did not, evidently, receive copies of these

4
Custin states that he is in no position to verify Shuck’s testimony. I take him to
be referring to the truth, or not, of her statements. A transcript of the testimony itself
was attached as Exhibit F to the Defendants’ motion for summary judgment. It does
not seem to be disputed that Shuck testified.
5
There is a potential ambiguity as to “that day.” State Defendants claim that
Shuck testified that there were no other issues reported “on each of those days.”
(DSMF If 30). That is inaccurate; Shuck testified that the phone was working on one
day in particular, later stating that she “just printed out the list from that day and
there are nine people called out and would be tardy.” (AT Transcript at 27). It is not
clear which day she is referring to, and Plaintiff claims “that day” is in fact April 26,
2010—the day he was terminated. (PRSMF U 42). However, Shuck also testified that
“[w]e had no other problems and we did have other absences that day,” which in
■ context.is_referring_to_April 23, 2010, the day she allegedly called Custin to ask why he
had not called out. (AT Transcript at 19-20).
4

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 5 of 21 PagelD: 3346
- 18a *
documents prior to the hearing, he did not raise any issues regarding them at
the time. (DSMF Tf 31; PRSMF If 32).
On July 6, 2010, the Appeal Tribunal issued a decision disqualifying
Custin from unemployment benefits. (DSMF U 33). The Tribunal found that
Custin did not properly notify his employer of his absence for five consecutive
work days, despite his awareness of the notification requirement. (DSMF If 34).
Custin appealed the decision to the Board of Review, which is the highest
appellate level within the New Jersey Department of Labor for deciding
unemployment and temporary disability benefit disputes. (DSMF

8, 35). The

Board of Review consisted of Defendants Sieber, Yarbrough, and Maddow (the
“Board of Review Defendants”). (DSMF U 35). In a decision dated February 4,
2011, the Board of Review affirmed the decision of the Appeal Tribunal.6 {Id.)
Custin then appealed the Board of Review’s decision to the Superior
Court of New Jersey, Appellate Division. (DSMF U 36). The Appellate Division
affirmed the Board of Review’s decision. {Id.).
Second Claim
On or about December 4, 2011, Custin filed a claim for extended
benefits. (DSMF If 61). This claim was denied, and he appealed the decision to
the Appeal Tribunal on December 21, 2011. (DSMF K 62). On February 23,
2012, Custin participated in a telephone hearing with an examiner from the
Appeal Tribunal. {Id.). The next day, the Appeal Tribunal affirmed the decision
and deemed Plaintiff ineligible for extended benefits because he had not earned
any wages after the effective date of his disqualification for regular benefits.7
(DSMF H 63).

6
Custin claims to dispute this fact, but not in the sense that he denies that the
Board of Review affirmed the Appeal Tribunal’s decision. Rather, he makes the point
that “[t]he Board of Review had no authority to find on an incomplete and insufficient
record.” (PRSMF U 35).
/

7
Custin admits this, but notes that the decision of the Appeal Tribunal rested on
“monetary grounds” while the denial by the examiner on the second claim cited what
he describes as “separation grounds.” (PRSMF 1f 63).
5

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 6 of 21 PagelD: 3347
- 19a Custin appealed this decision to the Board of Review, which remanded
the case to the Appeal Tribunal for additional testimony regarding monies
Custin received in 2011 (i.ewage income that could provide a basis for
extended benefits). (DSMF | 64). The Appeal Tribunal held another hearing on
September 12, 2012, during which Custin noted that he received a payment of
$13,000 from Wal-Mart for the settlement of a discrimination lawsuit he filed at
some point after his discharge. (DSMF U 65).
The Appeal Tribunal again deemed Custin ineligible for extended
benefits. The $13,000 settlement payment, it held, did not constitute wages,
and Plaintiff did not perform any services for Wal-Mart after his April 26, 2010
discharge. (DSMF U 66). He did not appeal this decision to the Board of
Review.8 (DSMF ^ 67).
Third Claim
Custin filed another unemployment claim on March 11, 2012. (DSMF ^
72). Custin disputes many of the circumstances regarding this claim and
whether he properly received notice of it, but ultimately the Appeal Tribunal
held a hearing on August 29, 2012. (DSMF f 75). In a decision dated August
30, 2012, the Appeal Tribunal affirmed Custin’s ineligibility for benefits. (DSMF
| 78). He did not appeal this decision to the Board of Review. (DSMF 179).
Fourth Claim
Custin filed another unemployment claim on December 30, 2012. (DSMF
| 82). He was deemed ineligible for benefits “on the ground that he lacked
sufficient base weeks or sufficient base year wages to establish a valid claim.”
(DSMF | 83). He appealed this determination to the Appeal Tribunal, which
held a hearing on March 15, 2013. (DSMF 1 84). The Appeal Tribunal affirmed
the denial of benefits. (DSMF H 85). Custin did not appeal this decision to the
Board of Review. (DSMF ^ 90).

s
Custin disputes this fact without an explanation. He does not appear to be
asserting-that.he.did.in.fact appeal the decision. (PRSMF H 67). Rather, he seems to
object to the Defendants’ characterizations of, e.g., his reasons for not appealing.
(PRSMF U179, 90).
6

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 7 of 21 PagelD: 3348

- 20a -

I.

Legal Standard

Federal Rule of Civil Procedure 56(a) provides that summary judgment
should be granted “if the movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a); see also Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248 (1986); Kreschollek v. S. Stevedoring Co., 223 F.3d 202, 204 (3d Cir. 2000).
In deciding a motion for summary judgment, a court must construe all facts
and inferences in the light most favorable to the nonmoving party. See Boyle v.
Cty. of Allegheny Pa., 139 F.3d 386, 393 (3d Cir. 1998). The moving party bears
the burden of establishing that no genuine issue of material fact remains. See
Celotex Corp. v. Catrett, 477 U.S. 317, 322-23 (1986). “[W]ith respect to an
issue on which the nonmoving party bears the burden of proof ... the burden
on the moving party may be discharged by ‘showing’—that is, pointing out to
the district court—that there is an absence of evidence to support the
nonmoving party’s case.” Celotex, 477 U.S. at 325.
Once the moving party has met the threshold burden, the non-moving
party “must do more than simply show that there is some metaphysical doubt
as to material facts.” Matsushita Elec. Indus. Co., Ltd. v. Zenith Radio Corp., 475
U.S. 574, 586 (1986). The opposing party must present actual evidence that
creates a genuine issue as to a material fact for trial. Anderson, 477 U.S. at
248; see also Fed. R. Civ. P. 56(c) (setting forth types of evidence on which the
nonmoving party must rely to support its assertion that genuine issues of
material fact exist). In deciding a motion for summary judgment, the court’s
role is not to evaluate and decide the truth of the matter, but to determine
whether there is a genuine issue for trial. Anderson, 477 U.S. at 249.
Credibility determinations are the province of the fact finder. Big Apple BMW,
Inc. v. BMW of N. Am., Inc., 974 F.2d 1358, 1363 (3d Cir. 1992). The summary
judgment standard, however, does not operate in a vacuum. “[I]n ruling on a
-motion-for-summarv-iudgment.-the-iudge.must.view the evidence presented
7

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 8 of 21 PagelD: 3349

- 21a through the prism of the substantive evidentiary burden.” Anderson, 477 U.S.
at 254.
II.

Discussion

Custin raises due process issues with respect to his first, second, third,
and fourth claims for unemployment benefits. The first claim for unemployment
benefits arose from Custin’s dismissal on April 26, 2010. As to that claim, the
main issue was whether he had essentially been absent without leave for five
days. The second, third, and fourth claims sought extended benefits. As to
those, the main issue was whether, in the relevant period, Custin had earned
wages, a prerequisite for an award of benefits.
In Section A, I consider Custin’s due process claim with respect to the
second, third, and fourth claims for unemployment benefits. In Section B, I
consider his due process claim with respect to the original, first claim for
benefits. Sections C and D dispose of miscellaneous issues.
A. Due Process Violations: Second, Third, and Fourth Claims
“Procedural due process imposes constraints on governmental decisions
which deprive individuals of ‘liberty’ or ‘property’ interests within the meaning
of the Due Process Clause of the Fifth or Fourteenth Amendment.” Mathews v.
Eldridge, 424 U.S. 319, 332 (1976). Unemployment benefits are considered to
be property interests. See Wilkinson v. Abrams, 627 F. 2d 650, 664 (3d Cir.
1980) (“State statutes providing for the payment of unemployment
compensation benefits create in the claimants for those benefits property
interests protected by due process.”).
“In order to state a claim for failure to provide due process, a plaintiff
must have taken advantage of the processes that are available to him or her,
unless those processes are unavailable or patently inadequate.” Alvin v. Suzuki,
227 F. 3d 107, 116 (3d Cir. 2000). Available processes need not be followed
when they are futile. See id. at 118 (“When access to procedure is absolutely
blocked or there is evidence that the procedures are a sham, the plaintiff need
~not~pursue-them-to-state-a-due-process.claim.’i)..A j3laintiff “cannot forego_____

8

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 9 of 21 PagelD: 3350

- 22aattempting to use those processes simply because he thinks that they will be
followed in a biased manner.” Id. at 119. “This is true even when the plaintiff
contends that one part of the process afforded him was biased, so long as there
were avenues of review available to him.” Persico v. City of Jersey City, 67 F.
App’x 669, 675 (3d Cir. 2003).
For example, in Alvin, the plaintiff alleged that a public university failed
to provide him due process in depriving him work-related privileges. The
plaintiff argued that, based on his experience with the university, he believed
the grievance process would be constitutionally inadequate. Id. at 118. Indeed,
“[t]he record supported] his argument that the informal proceedings were
painfully slow, and that several letters he wrote were not responded to, and
even that several members of the [university] faculty and administration were
disposed against his claim.” Id. at 119. Still, the Third Circuit found that there
was “simply insufficient evidence that the formal hearing would not be held in
a fair and impartial manner.” Id.
This court has previously outlined the applicable process for
unemployment claims:
New Jersey has a “process on the books that appears to
provide due process of which Plaintiff simply failed to avail himself.
Under the [New Jersey Unemployment Compensation Act, N.J.S.A.
43:21-19(c)(l)], a claimant who is dissatisfied with a determination
of benefits eligibility is entitled to file an administrative appeal to
an Appeal Tribunal, before which tribunal the claimant may be
represented by counsel and may cross-examine witnesses. N.J.S.A.
43:21-6(b)(l), 43:21-17(b). The decision of the Appeal Tribunal is,
in turn, appealable to the Board of Review, N.J.S.A. 43:21-6(e),
and the final decision as to a claimant's entitlement to benefits is
appealable to the Appellate Division under N.J. Ct. R. 2:2-3(a)(2).
Akuma v. New Jersey Comm’r of the Dep’t of Labor and Workforce Dev., No. 071058, 2008 WL 4308229, at *2 (D.N.J. Sept. 17, 2008) (quotation omitted).
Plaintiff did not take proper advantage of this appeals process for his
second, third, and fourth claims, however; in the words of Alvin, he has not
“taken advantage of the processes that are available to him . . . .” 227 F. 3d at
116. As noted above, Custin did not pursue the third and fourthclaims beyond
9

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 10 of 21 PagelD: 3351
- 23a the Appeal Tribunal at all. Interestingly, as to the second claim, he did pursue
further administrative appeals, obtained a remand and a new decision, but
then went no farther than the Appeal Tribunal. See pp. 5-6, supra. So even
assuming there was error at some stage of the process, his failure to pursue
the available means of correction generally cuts off a due process claim.
Still, a plaintiff may retain a due process claim if the forgone processes
“are unavailable or patently inadequate.” Id. No claim of “unavailability” can be
sustained here. In fact, Custin appealed his first claim all the way to the
Appellate Division, and took his second claim up and down the administrative
appeal ladder. There is no showing that, as to the second, third, and fourth
claims, his access to the appeals process was “blocked.” The claim, then, must
be that the processes were “inadequate”— in effect, a “sham.” Id. at 117-18.
I construe Plaintiffs materials liberally given his pro se status. In
Custin’s briefing and responsive statement of undisputed material facts, he
makes the following claims regarding the efficacy of the appellate process for
his second, third, and fourth claims:
1. He was not notified of the legal basis for his initial disqualification for
the second claim in advance of his hearing with the Appeal Tribunal,
and therefore could not prepare an adequate defense. (PRSMF H 62).
2. The affirmation by the Appeal Tribunal for the second claim was
based on different legal grounds than the grounds stated in the initial
notice of ineligibility. (PRSMF If 63).
3. After the second claim had been appealed to the Board of Review and
remanded to the Appeal Tribunal for additional testimony, the
decision of the Appeal Tribunal denying the claim stated no New
Jersey law that the $13,000 he received should not qualify as wages.
(PRSMF T| 66).
4. Denial of the second claim meant that he was being disqualified twice
on the same charge. (PRSMF H 68).

10

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 11 of 21 PagelD: 3352
- 24a5. The damaging effect of the loss of benefits due to the denial of the
second claim was disproportionate to the “purported offense” of not
calling in to Wal-Mart. (PRSMF

68).

6. The result of denial of the second claim was an unfair application of
law. (PRSMF H 70).
7. He was not properly notified of the date and time of the initial hearing
for his third claim. (PRSMF K 74).
8. The decision by the Appeal Tribunal affirming denial of his third claim
was arbitrary and did not state any New Jersey law that the $13,000
he received should not qualify as wages. (PRSMF H 78).
9. He “was given every reason to believe from the experience with his
claims that state agencies such as the [New Jersey Department of
Labor] and its administrative proceedings and Boards were blind to
offenses to constitutional due process of law.” (PRSMF | 79).
The “Notice to Claimant of Benefit Determination” regarding his

10.

fourth claim showed the wrong base year periods. (PRSMF | 83).
During the Appeal Tribunal hearing for his fourth claim, the

11.

examiner failed to ask questions that would have confronted the issue
of whether the $13,000 he received should qualify as wages. (PRSMF
184).
12.

The decision by the Appeal Tribunal affirming denial of his fourth
claim was arbitrary and did not state any basis under New Jersey law
that the $13,000 he received should not qualify as wages. (PRSMF U
78).

Legal or factual errors allegedly made by various Appeal Tribunals or
other officials do not equate to a finding that the appeals process itself was
faulty. For example, Custin has not shown that the Board of Review failed to
give him the opportunity to appeal or present his case. Even less pertinent is
Plaintiffs oft-expressed feeling that the Board of Review or the courts would
~hm)c> is?Tip-rl~a-n-in-r.nrreet-deeision-i-f-t-he-mat-ter-were_pre.sen_ted to them._____

11

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 12 of 21 PagelD: 3353
- 25a Even on their face, Plaintiffs claims tend to defeat themselves. The
second claim, for example, relates that the Board of Review responded
favorably to his proffer of additional evidence and remanded the case. After the
Appeal Tribunal had initially affirmed denial of the claim, Custin sent a letter
to the Board of Review requesting that they remand his case to the Appeal
Tribunal. (CSMF U 217). He attached to this letter a copy of a W2 form he had
recently received from Wal-Mart, which, to him, showed that the Appeal
Tribunal erred in concluding he had not received wages in the relevant period.
(Id.). In response, the Board of Review remanded the case for further fact
finding on this issue. (CSMF ^ 221). An Appeal Tribunal hearing then in fact
occurred on September 12, 2012. (CSMF | 225). Plaintiff chose not to appeal
this decision to the Board of Review, but there is no dispute that he was able to
participate in the appeals process. This was anything but a sham.
Issue seven above is the only point that approaches a demonstration of a
defect in the actual process of appeal. Custin claims that he was not properly
given notice of a March 26, 2012 hearing on the “monetary” issue. (CSMF m
242-246).9 Plaintiff did receive a hearing before the Appeal Tribunal on August
29, 2012. (PRSMF If 75). Custin’s grievance, not always clearly expressed,
seems to be that this appeal was irregular because it concerned the “monetary”
hearing of which he had not received proper notice. (CSMF f 257). If that was a
procedural error, it should have been asserted as such. It was surely
correctable within the procedures made available to Custin. There is no reason
why he could not have raised this issue to the Board of Review, or, if necessary,
the Appellate Division. Plaintiff knew that the Board, faced by claims of
procedural error or additional evidence, had been willing to remand to the
Appeal Tribunal previously.

9
He states that he was only notified of a separate hearing on another issue, the
“separation” issue, scheduled for March 29, 2012. The March 29, 2012 hearing
apparently did not take place, for reasons that appear of record. Custin received a
-letter, from, an l‘ETA Region 1 Administrator” explaining that the determination that he
did not receive wages, and was therefore monetarily'iheligible7rendered'the-March-297
2012 fact-finding interview on the separation issue unnecessary. (CSMF 245).
12

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 13 of 21 PagelD: 3354
-26aPlaintiff stated that he did not appeal his third claim to the Board of
Review because “now it’s headed for the U.S. Courts and not the State Courts,
which apparently, don’t do anything in regard to insuring due process of law at
its proceedings.” (DSMF

79; PRSMF ^ 79). The choice to abandon state

remedies in favor of a federal lawsuit was Custin’s. Nothing in this statement,
however, establishes that state remedies were unavailable or illusory, even if
Custin was dissatisfied with the results he was getting.
Having reviewed Plaintiff’s statement of facts and legal arguments, I see
no evidence that the appeals process for his second, third, and fourth claims
was unconstitutionally inadequate. That being the case, because he did not
take advantage of the appeals process available to him, he cannot claim to have
been denied due process.
B. Due Process Violations: First Claim
Regarding his first claim for unemployment benefits, Custin did pursue
the available state procedures. That process culminated in an appeal to the
New Jersey Superior Court, Appellate Division, which affirmed the denial of
benefits. Thus as to the first claim, in contrast with the second, third, and
fourth claims, it is possible to make a more meaningful assessment of his claim
to have been denied due process.
“The essential requirements of due process . . . are notice and an
opportunity to respond.” Cleveland Bd. ofEduc. v. Loudermill, 470 U.S. 532,
546 (1985). Claimants are constitutionally obligated “the opportunity to be
heard at a meaningful time and in a meaningful manner.” Mathews, 424 U.S.
at 332. Further, due process “entitles a person to an impartial and
disinterested tribunal . . . .” Marshall v. Jericho, 446 U.S. 238, 242 (1980).
Custin has not provided, nor can I discover, any authority in this circuit that
defines the process constitutionally required in connection with a denial of
unemployment benefits. However, the Third Circuit has provided guidance in
somewhat analogous contexts.

13

1
Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 14 of 21 PagelD: 3355
- 27a-

One such context is review of local zoning board decisions. See, e.g.,
Koynock v. Lloyd, 405 F. App’x 679 (3d Cir. 2011); DeBlasio v. Zoning Bd. of
Adjustment for Twp. of West Amw ell, 53 F. 3d 592 (3d Cir. 1995); Rogin v.
Bensalem Twp., 616 F. 2d 680 (3d Cir. 1980). No process, of course, is free
from error, and zoning board decisions are no exception. In DeBlasio, however,
the Third Circuit held that “a state provides constitutionally adequate
procedural due process when it provides reasonable remedies to rectify a legal
error by a local administrative body.” 53 F. 3d at 597.
Another analogous context is review of public employee terminations.
See, e.g., Beckwith v. Pennsylvania State Univ., 672 F. App’x 194 (3d Cir. 2016);
Thomas v. Delaware State Univ., 626 F. App’x 384 (3d Cir. 2015); Biliski v. Red
Clay Consol. School Dist. Bd ofEduc., 574 F. 3d 214 (3d Cir. 2009). In Biliski,
the Third Circuit echoed the Supreme Court’s holding that “[t]he tenured
public employee is entitled to oral or written notice of the charges against him,
an explanation of the employer’s evidence, and an opportunity to present his
side of the story.” 574 F. 3d at 220 (quoting Loudermill, 470 U.S. at 546).
Finally, the Third Circuit has also addressed the question of when error
by a state administrative body may be attacked as a due process violation. In a
recent case, the plaintiff complained that the Director of the Division of Family
Development overrode a favorable decision by an administrative law judge
without evidentiary support. Brown v. Camden Cnty. Bd. of Soc. Servs., 704 F.
App’x 204, 206 (3d Cir. 2017)10. The court noted that the plaintiff (like Custin)
had the option to seek review of the administrative decision by the New Jersey
Appellate Division. The availability of that recourse for correction of error
negated a due process claim, as “[t]he judicial remedy provided is no doubt
adequate.” Id. at 207.
Custin outlines a wide array of perceived procedural defects in the
adjudication of his first claim, many of which are summarized below:

The Third Circuit""designated Brown as a nonprecedential decision. It'is-cited-fbr
its persuasive value.

"10

14

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 15 of 21 PagelD: 3356

- 28a
1. The Appeal Tribunal wrongly allowed Wal-Mart to appeal the default
judgment in his favor after Wal-Mart declined to respond to the claim
examiner’s questions. (CSMF | 23).
2. The Appeal Tribunal allowed Wal-Mart to file an appeal despite its
faxing in the request a day late. (CSMF ^ 34).
3. He was never provided with the documents Wal-Mart intended to use
as evidence against him during the Appeal Tribunal Hearing, some of
which were faxed in advance to the Appeal Tribunals. (CSMF ^ 1).
4. The notice for his initial claims hearing, while indicating that he “may
have been discharged for misconduct connected to the work” did not
indicate “what entity or individual was making this charge.” (CSMF TfTJ
14, 15).
5. He never received a copy of Wal-Mart’s protest letter which led to the
Appeal Tribunal hearing. (CSMF f 29).
6. He did not receive notice that a witness would testify against him at
the Appeal Tribunal hearing. (CSMF ^ 29).
7. One of the two issues docketed to be determined at the Appeal
Tribunal hearing was whether the claim could be denied for
“misconduct connected to the work,” despite default judgment having
been entered on that issue. (CSMF TJ 36).
8. The issues docketed for the Appeal Tribunal hearing were so broad in
scope that he could not prepare an adequate defense. (CSMF

43).

9. The Appeal Tribunal did not give him information on how to seek to
dismiss the issue of “voluntary leaving” on appeal. (CSMF
10.

52-59).

Wal-Mart provided a different witness at the hearing than the
person they indicated would be testifying in their protest letter to the
Appeal Tribunal. (PRSMF U 17).

11.

The Appeal Tribunal should never have considered the “callout list”
that Shuck printed out during the hearing. (CSMF | 81).

12__ H i s-attendance -record, and exit in te rview_we re never entered into
the record by the Appeal Tribunal. (CSMF
15

89-90).

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 16 of 21 PagelD: 3357
- 29a 13.

The Board of Review submitted a review of his appeal to “an
unknown deputy ‘reviewer,”’ thereby delegating a task reserved for
Board of Review members to someone “not meeting the civil service
requirements for a Board member.” (CSMF If If 92-94).

14.

The unknown reviewer for the Board of Review failed to detect the
errors in the Appeal Tribunal record. (CSMF | 95).

15.

Shuck’s testimony was insufficient for any reviewer to conclude
that Wal-Mart’s call-out system was functional, since it was
ambiguous which day she was referring to when she stated others
had no problems calling in. (CSMF | 132).

Despite this lengthy list of putative procedural defects, Custin still has
not shown that he was denied due process. Analyzing his case under general
principles of due process and the analogous cases cited above, I find that he
was given notice and an opportunity to respond prior to the denial of his
benefits. He was given an explanation of the evidence against him and an
opportunity to present his side of the story. He was afforded the opportunity to
cross-examine Shuck, the witness who testified on behalf of his employer. He
was also given, and took advantage of, the remedy of full judicial review to
rectify possible errors by an administrative body.
Nowhere does Custin claim that he was denied participation in the
administrative process or an opportunity to present his case. Following his
appeal of the Board of Review’s decision, the New Jersey Appellate Division
analyzed his original claim as well as potential procedural defects in its
adjudication. The Appellate Division’s opinion considered the claim, reasserted
here, that certain documents were not entered into the record or provided in
advance of the hearing. It considered the claim that he was not on proper
notice of the issues being determined. In a reasoned decision, that court
rejected those claims. Notice, it found, had been given, the claim as to the
documents had not been preserved, and in any event the documents were far
from-critical-to-his-case.-fAG_Cert.,.Ex._H). However disappointing to the

16

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 17 of 21 PagelD: 3358
- 30aplaintiff, this decision is not evidence of any procedural infirmity—quite the
opposite, in fact.
Moreover, many of Custin’s criticisms of the administrative process are
simply incorrect. He argues that there never should have been an Appeal
Tribunal appeal because Wal-Mart failed to respond to the initial request for
information. But employers may provide new information, even after an initial
determination. See N.J. Stat. Ann. § 43:21-6(b)(l).n He also claims Wal-Mart’s
appeal should have been dismissed as untimely. But Wal-Mart appealed within
10 days from the day after the determination was mailed. (AG Cert., Ex. E at 2).
See N.J. Stat. Ann. § 43:21-6(b)(l) (appeal must be filed “within 10 calendar
days after such notification was mailed . . . .”).
To show that New Jersey’s process was insufficient, Custin cites to a
Tenth Circuit case concerning the Colorado unemployment benefits system.
The plaintiff in that case was denied unemployment benefits after a hearing at
which his employer testified. Shaw v. Valdez, 819 F. 2d 965, 968 (10th Cir.
1987). Prior to the hearing, the plaintiff had received only a simple notice
indicating the time and place of the hearing, as well as the fact that it would
discuss “[a]ll issues and factual matters affecting claimant’s eligibility . . . .” Id.
The Tenth Circuit concluded that this notice was insufficient, since the
claimant was caught unaware at the hearing as to the reasons for his
termination and the basis for denial of benefits. Id. at 969. This case is
11 The relevant section provides:
Whenever an initial determination is based upon information other than
that supplied by an employer because such employer failed to respond to
the deputy's request for information, such initial determination and any
subsequent determination thereunder shall be incontestable by the
noncomplying employer, as to any charges to his employer's account
because of benefits paid prior to the close of the calendar week following
the receipt of his reply. Such initial determination shall be altered if
necessary upon receipt of information from the employer, and any benefits
paid or payable with respect to weeks occurring subsequent to the close
of the calendar week following the receipt of the employer's reply shall be
--------- paid in-accordance.with.such altered initial determination._____________
N.J. Stat. Ann. § 43:21-6(b)(l) (emphasis added).
17

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 18 of 21 PagelD: 3359
- 31a inapposite for several reasons. First, the plaintiff in Shaw argued that
Colorado’s statutory procedures were facially insufficient, not that individual
state actors deprived him of due process. Second, that plaintiff was not
claiming a due process violation, but the state’s failure to provide him a “fair
hearing” as required by the Social Security Act. Third, that plaintiff was
presented for the first time during the hearing with certain reasons for his
termination, having previously been given different reasons.
Here, although the record is not clear on what Custin was told by WalMart upon termination, he was fully aware that the Appeal Tribunal hearing
would encompass the issue of discharge related to misconduct.12 This charge
was sent to him in a letter and repeated at the beginning of the hearing.
(PRSMF TI 15; AT Transcript at 4-6). Custin cannot claim the same lack of
notice as the plaintiff in Shaw, despite his belief that the Appeal Tribunal
improperly docketed the issue of workplace misconduct.
The Appeal Tribunal process was less than ideal in some respects. The
documents faxed over by Wal-Mart prior to the hearing ought to have been
entered into the record and provided to Custin prior to the hearing. See
N.J.A.C. 1:12-14.6(d)13. But he has not shown that this error dragged the

12
Custin argues that Wal-Mart did not in fact assert the “misconduct” charge,
which somehow originated from the Appeal Tribunal itself. At any rate, that does not
negate the fact that he was given notice of the charges, as the Appellate Division
found. (AG Cert., Ex. H at 15).

13 The subsection reads as follows:
Any party that intends to offer documentary or physical evidence at the
telephone hearing shall submit a copy of that evidence to the Board of Review
or appeal tribunal and all other interested parties immediately upon receipt of
notice of the scheduled telephone hearing. Also, the requesting party shall
provide timely notice of this request to offer evidence to all other interested
parties.
1. Any evidence not submitted as required in this subsection may be
admitted at the discretion of the Board of Review or the appeal tribunal
.provided that such evidence is submitted to the Board of Review or
appeal tribunal and all other parties within 24”hours ofthe"telephone
hearing.
18

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 19 of 21 PagelD: 3360
- 32a proceedings below the federal constitutional floor of due process. And indeed, it
is highly unlikely that these claimed errors even affected the outcome. The
documents were not necessary to deny his claim. His attendance record was
superfluous since he admitted he was absent for five consecutive work days.
The exit interview document, even if submitted belatedly, could only be
considered favorable to Custin’s case, and Shuck testified that the exit
interview reported him as re-hireable.14 Even the “call-out list” was not
evidence of his misconduct. It was merely additional evidence that Shuck used
to bolster her sworn testimony that others had successfully used the call-out
number, refuting Custin’s testimony that he attempted to call in for five days,
but the phone line malfunctioned.15 These alleged errors did not amount to an
overall unconstitutional deprivation of due process.
Ultimately, the critical evidence for and against Custin was amply
explored. He was aware of the policy that he needed to call in prior to missing a
scheduled shift. He failed to do so for five consecutive work days. Custin may
believe that his proffered excuses and defenses should have prevailed, but a

2. The other parties shall have 24 hours from the time of receipt of the
evidence to properly respond to its admission and use.
3. Upon review of the evidence, the Board of Review or the appeal
tribunal shall determine if the telephone hearing shall be continued.
N.J.A.C. § 1:12-14.6(d).
Custin claims that the Appeal Tribunal examiner used the exit interview to
corroborate Shuck’s testimony regarding the precise dates of his absence. (PL Opp. at
20-21). Even so, he did not then dispute those dates, nor does he dispute them now.
14

Custin cites a case from the Commonwealth Court of Pennsylvania finding a
lack of due process when the plaintiff was not able to examine documents that a
witness referred to in the course of a telephone hearing. (PI. Opp. at 18-19). This state
court opinion is not binding precedent on this constitutional due process claim, nor is
it entirely relevant. Custin has not shown any authority that the Appeal Tribunal
hearing needed to comport with any particular rules of evidence. In fact, “the conduct
of hearings and appeals shall be in accordance with rules prescribed by the board of
-review-for-determining.the.rights_of parties, whether or not such rules conform to
common law or statutory rules of evidence and other technical proceduresf’NrJrStat:
Ann. § 43:2l-6(f) (emphasis added).
15

19

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 20 of 21 PagelD: 3361

- 33avariety of tribunals (who are not alleged to be biased or conflicted) disagreed.
That there may have been some procedural imperfections in the adjudication of
his claim does not negate the overall adequacy of the process he was afforded.
He had notice of and an opportunity to defend himself at an impartial hearing.
To the extent he believed the procedure or substance of the hearing was flawed,
he also had the ability to appeal the findings of that hearing multiple times,
ultimately to an independent judicial forum. Because the State Defendants did
not interfere with Custin’s right to that process, he cannot succeed in claiming
they deprived him of it. Even assuming arguendo that the outcome was
erroneous, which I do not, the process was not so defective as to give rise to a
constitutional claim.
Viewing all of the facts in the light most favorable to the non-movant, I
hold that, as a matter of law, the State Defendants have not violated Custin’s
due process rights. I grant summary judgment in favor of the State Defendants
on the § 1983 deprivation of due process claims.
C. Personal Liability and Qualified Immunity
Because Custin has failed to demonstrate a triable issue of fact with
respect to his Due Process claim, I do not reach ancillary issues, such as the
State Defendants’ potential personal liability, or qualified immunity.
D. State Defendants’ Requests to Strike Certain Arguments
In their reply brief, the State Defendants argue that (i) Custin’s
opposition brief should be disregarded due to its excessive length; (ii) his Rule
56.1 responsive statement of material facts should be disregarded because it is
overlong, improperly advances legal arguments, and fails to cite properly to the
record; and (iii) his argument regarding Shuck’s call-out list, along with other
new arguments, should be disregarded since it was raised for the first time in
his opposition brief and was not present in the operative complaint.
Because Custin appears pro se, I accept his filings as-is. I have
considered his documents and arguments fully in reaching my decision on the
-merits;------------------------------------ ------------------------20

Case 2:12-cv-00910-KM-MAH Document 253 Filed 03/25/20 Page 21 of 21 PagelD: 3362

- 34a III. Conclusion
For the reasons set forth above, the State Defendants’ motion for
summary judgment (DE 233) is GRANTED in favor of Defendants on all claims
based on alleged violations of the Due Process Clause of the Fourteenth
Amendment.
An appropriate order follows. The order invites the parties, within ten
days, to identify any issue which they believe remains open and undecided.
Dated: March 25, 2020

/s/ Kevin McNulty
HON. KEVIN MCNULTY, U.S.D.J.

21

Case 2:12-cv-00910-KM-MAH Document 254 Filed 03/25/20 Page 1 of 1 PagelD: 3363
- 35a UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
JOHN M. CUSTIN,
Plaintiff,
v.

Civ. No. 2:12-cv-910-KM-MAH

HAROLD J. WIRTHS, JOSEPH SIEBER,
GERALD YARBROUGH, JERALD L.
MADDOW, et al.,

ORDER

Defendants.

THIS MATTER having come before the Court on the motion for summary
judgment filed by the remaining Defendants, Harold J. Wirths, Joseph Sieber,
Gerald Yarbrough, and Jerald Maddow (DE 233);
And the Court having considered the moving, opposition, and reply
papers on the motion for summary judgment (DE 233-2, 246, 252);
For the reasons set forth in the accompanying Opinion, and for good
cause shown:
IT IS this 25th day of March, 2020
ORDERED that the Defendants’ motion for summary judgment is
GRANTED and Plaintiffs third amended complaint (DE 38) is DISMISSED
WITH PREJUDICE as to the remaining due process claims.
IT IS FURTHER ORDERED that to the extent any party believes that
any issue remains open and undecided, that party shall notify the court in
writing within ten days.

/s/ Kevin McNulty
HON. KEVIN MCNULTY, U.S.D.J.

Case 2:12-cv-00910-KM-MAH Document 130 Filed 03/22/16 Page 1 of 13 PagelD: <pagelD>

- 36a-

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY

JOHN M. CUSTIN,

Civ. No. 12-910 (KM)
Plaintiff,
MEMORANDUM OPINION

v.

HAROLD J. WIRTHS, et al •»
Defendants.

KEVIN MCNULTY. U.S.D.J.:
The plaintiff, John M. Custin (“Custin”) brought this action alleging
constitutional and statutory violations in connection with the process for
applying for unemployment benefits. Following the termination of his
employment with Walmart in April 2010, Custin sought eligibility for COBRA
health benefits and biweekly unemployment benefits. Custin’s five applications
to the New Jersey Department of Labor (“NJDOL”) were denied. He filed
unsuccessful appeals of those determinations with the Appeals Tribunal and
Board of Review. Custin also appealed one of those administrative actions to
the New Jersey Superior Court, Appellate Division, which affirmed the denial of
eligibility. Custin then filed suit in this Court against the Commissioner of the
NJDOL, Harold Wirths, and three officials who sat on the Board of Review,
Joseph Sieber, Gerald Yarbrough, and Jerald Maddow (collectively, “State
Defendants”), as well as the current and former United States Secretary of
Labor, and the Assistant Secretary of Employment and Training Administration
(collectively, “Federal Defendants”).
On January 31, 2014,1 granted the Federal Defendants’ motion to
dismiss the Third Amended Complaint, but denied the State Defendants’
motion that I abstairTfrom exercisingjurisdiction under-the doctrine-of-Younger.
l
AUTHENTICATED ,
U.S. GOVERNMENT
INFORMATION /

GPO

Case 2:12-cv-00910-KM-MAH Document 130 Filed 03/22/16 Page 2 of 13 PagelD: <pagelD>

- 37a v. Harris, 401 U.S. 37 (1971). (ECF no. 83) Although my dismissal was without
prejudice, Custin has not filed another amended complaint, so the Third
Amended Complaint remains the operative pleading. (ECF no. 38) (References
herein to the Complaint (“Compl.”) are to the Third Amended Complaint.)
Now before the Court is the State Defendants’ motion to dismiss the
complaint for lack of subject matter jurisdiction pursuant to Fed. R. Civ. P.
12(b)(1) and for failure to state a claim pursuant to Fed. R. Civ. P. 12(b)(6).
(ECF no. 94) Because I write for the parties, I write briefly and assume
familiarity with the case. This Opinion should be read in conjunction with my
earlier, more detailed Opinion in this matter (ECF no. 84). For the reasons set
forth below, the motion is granted in part and denied in part.
LEGAL STANDARD
The State Defendants have moved to dismiss the complaint for lack of
jurisdiction, citing the Rooker-Feldman doctrine. Rule 12(b)(1) governs
jurisdictional challenges to a complaint. These may be either facial or factual
attacks. See 2 Moore's Federal Practice § 12.30[4] (3d ed. 2007); Mortensen v.
First Fed. Sav. & LoanAss’n, 549 F.2d 884, 891 (3d Cir. 1977). A facial
challenge asserts that the complaint does not allege sufficient grounds to
establish subject matter jurisdiction. Iwanowa v. Ford Motor Co., 67 F. Supp.
2d 424, 438 (D.N.J. 1999). A court considering such a facial challenge assumes
that the allegations in the complaint are true, and may dismiss the complaint
only if it nevertheless appears that the plaintiff will not be able to assert a
colorable claim of subject matter jurisdiction. Cardio-Med. Assoc., Ltd. v.
Crozer-Chester Med. Ctr., 721 F.2d 68, 75 (3d Cir. 1983); Iwanowa, 67 F.
Supp. 2d at 438.
The State Defendants have also moved pursuant to Fed. R. Civ. P.
12(b)(6) to dismiss the complaint for failure to state a claim. Rule 12(b)(6)
provides for the dismissal of a complaint, in whole or in part, if it fails to state a
~claim upon which-relief-can-be-granted.-The defendant,.asJJiejnoying party,___

2

Case 2:12-cv-00910-KM-MAH Document 130 Filed 03/22/16 Page 3 of 13 PagelD: <pagelD>
- 38a -

bears the burden of showing that no claim has been stated. Hedges v. United
States, 404 F.3d 744, 750 (3d Cir. 2005). In deciding a Rule 12(b)(6) motion, a
court must take the allegations of the complaint as true and draw reasonable
inferences in the light most favorable to the plaintiff. Phillips v. County of
Allegheny, 515 F.3d 224, 231 (3d Cir. 2008) (traditional “reasonable inferences”
principle not undermined by Twombly, see infra).
Federal Rule of Civil Procedure 8(a) does not require that a complaint
contain detailed factual allegations. Nevertheless, “a plaintiffs obligation to
provide the ‘grounds’ of his ‘entitlement to relief requires more than labels and
conclusions, and a formulaic recitation of the elements of a cause of action will
not do.” BellAtl. Corp. v. Twombly, 550 U.S. 544, 555 (2007). Thus, the
complaint’s factual allegations must be sufficient to raise a plaintiffs right to
relief above a speculative level, so that a claim is “plausible on its face. Id. at
570; see also Umland v. PLANCO Fin. Serv., Inc., 542 F.3d 59, 64 (3d Cir. 2008).
That facial-plausibility standard is met “when the plaintiff pleads factual
content that allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (citing Twombly, 550 U.S. at 556). While “[t]he plausibility standard
is not akin to a ‘probability requirement’... it asks for more than a sheer
possibility.” Iqbal, 556 U.S. at 678.
DISCUSSION
A. Application of the Rooker-Feldman Doctrine
I deal at the outset with the State Defendants’ argument that this court
lacks subject matter jurisdiction over the action because Custin’s claims are
barred by the Rooker-Feldman doctrine. Under that doctrine, lower federal
courts may not adjudicate federal claims that were previously adjudicated in
state court or are inextricably intertwined with a state court decision. See
District of Columbia Ct. of Appeals v. Feldman, 460 U.S. 462, 482, 103 S.Ct.
1303 (1983); Rooker v: Fidelity Trust Co., 263 U.S. 413, 416, 44 S.Ct. 149_

Case 2:12-cv-00910-KM-MAH Document 130 Filed 03/22/16 Page 4 of 13 PagelD: <pagelD>

- 39a (1923). A federal claim is inextricably intertwined with a prior state court
decision if “granting the relief requested in the federal action requires
determining that the state court’s decision is wrong or would void the state
court’s ruling.” FOCUS v. Allegheny Cnty. Ct. of Common Pleas., 75 F.3d 834,
839-40 (3d Cir. 1996). The Rooker-Feldman doctrine precludes the exercise of
subject matter jurisdiction “where a federal action would be the equivalent of
an appellate review of a state court judgment.” Hogg’s v. New Jersey, 352 F.
App’x 625, 629 (3d Cir. 2009). The doctrine is applied where “the losing party
in state court filed suit in federal court after the state proceedings ended,
complaining of an injury caused by the state-court judgment and seeking
review and rejection of that judgment.” Exxon Mobil Corp. v. Saudi Basic Indus.
Corp., 544 U.S. 280, 284, 125 S.Ct. 1517 (2005). However, “when the source of
the injury is the defendant’s actions (and not the state court judgments), the
federal suit is independent, even if it asks the federal court to deny a legal
conclusion reached by the state court.” Great Western Mining & Mineral Co. v.
Fox Rothschild LLP, 615 F.3d 159, 167 (3d Cir. 2010).
Here, Custin does not complain of injuries caused by the state court
judgment; rather, he complains of due process violations during the NJDOL
administrative proceedings, which preceded the state court judgment, and asks
for an injunction to avoid future abuses. It is true that the state court decision
did analyze Custin’s due process concerns and find them to be without merit.
The state court judgment, however, is not itself the source of his claimed
injury, and it does not seem that Custin seeks review and rejection of the state
court judgment. Accordingly, I find the Rooker-Feldman doctrine inapplicable to
the claims here.
B. Immunity
The State Defendants argue next that they are immune from suit: the
N.J. Department of Labor because it is a state entity protected from suit by the
Eleventh Amendment, and the individual defendants because they have
qualified immunity for their actions as members of the Board of Review.

Case 2:12-cv-00910-KM-MAH Document 130 Filed 03/22/16 Page 5 of 13 PagelD: <pagelD>

- 40a -

a. Department of Labor Immunity Under the Eleventh
Amendment
It is axiomatic that under the Eleventh Amendment, “nonconsenting
states may not be sued by private individuals in federal court unless Congress
abrogates the state’s immunity pursuant to a valid exercise of its power.”
Hogg’s, 352 F. App’x at 628 (citing Bd. of Trustees of the Univ. of Ala. v. Garrett,
531 U.S. 356, 363-64, 121 S.Ct. 955 (2001)). Thus, even in actions where the
state is not a named party, where the state is deemed to be the real party in
interest, a suit will be barred by the Eleventh Amendment. See Benn v. First
Judicial Dist. of Pa., 426 F.3d 233, 239 (3d Cir. 2005) (citing Regents of the
Univ. of Cal. v. Doe, 519 U.S. 25, 429, 117 S.Ct. 900 (1997)). To determine
whether a suit against a state entity is a suit against the state, courts are to
consider the following factors: (1) whether the source of the money to pay a
judgment would be the state treasury, (2) the status of the entity under state
law, and (3) the entity’s degree of autonomy. Fitchik v. N.J. Transit Rail Ops.,
Inc., 873 F.2d 655, 659 (3d Cir. 1989).
As to the New Jersey Department of Labor, the outcome of the analysis is
obvious. The DOL is a department of State government:
We agree with the District Court's Finding that any judgment
against the State of New Jersey, the New Jersey Department of
Labor and Workforce Development, or the Division of Workers'
Compensation would be paid by New Jersey's state treasury. Dist.
Ct. Op. at 13-15. Because the State of New Jersey was thus the
real party at interest, the District Court properly held that these
entities are immune from a suit seeking money damages
Hogg's, 352 F. App'x at 628. Personnel of the Department of Labor, sued in
their official capacities, are likewise shielded from claims for damages by the
Eleventh Amendment. See Capogrosso v. The Supreme Court of New Jersey,
588 F.3d 180, 185 (3d Cir. 2009).
The immunity does not, however, extend to individual state officers sued
_in their.individual capacities. Nordoes it prevent them from being sued for
prospective injunctive or declaratory relief to end continuing or ongoing

Case 2:12-cv-00910-KM-MAH Document 130 Filed 03/22/16 Page 6 of 13 PagelD: <pagelD>

- 41a violations of federal law. Id.’, See Ex Parte Young, 209 U.S. 123, 28 S.Ct. 441
(1908).
Accordingly, the complaint will be dismissed against the NJDOL, as it is
immune from suit under the Eleventh Amendment. As for the individual
defendants, Custin has not specified whether he is suing them in their
personal or official capacities. Affording this pro se complaint a liberal reading,
however, I find that Custin has pled claims against the individual State
Defendants in their individual capacities, and I decline to dismiss the suit
against them on Eleventh Amendment grounds. I will, however, consider if they
are subject to qualified immunity.
b. Individual Defendants’ Qualified Immunity
The doctrine of qualified immunity “shields government officials from suit
even if their actions were unconstitutional as long as those officials’ actions did
not violate clearly established statutory or constitutional rights of which a
reasonable person would have known.” Bums v. PA Dep’t of Com, 642 F.3d
163, 176 (3d Cir. 2011) (quoting Harlow v. Fitzgerald, 457 U.S. 800, 818, 102
S.Ct. 2727 (1982)). Courts employ a two-part inquiiy to determine whether a
state official is entitled to qualified immunity:
Taken in the light most favorable to the party asserting the injury, do the
facts alleged show the officer’s conduct violated a constitutional right? If
no constitutional right would have been violated were the allegations
established, there is no necessity for further inquiries concerning
qualified immunity. On the other hand, if a violation could be made out
on a favorable view of the parties’ submissions, the next, sequential step
is to ask whether the right was clearly established.
Saucier v. Katz, 533 U.S. 194, 201, 121 S.Ct. 2151 (2001). Clearly established
means that “[t]he contours of the right must be sufficiently clear that a
reasonable official would understand that what he is doing violates that right.
Anderson v. Creighton, 483 U.S. 635, 640, 107 S.Ct. 3034 (1987).
Here, Custin alleges that his due process rights were violated in the
administrative-review process -to determine his. eligibility for medical benefits.
The parties do not dispute that medical benefits are a property right, the denial
6

Case 2:12-cv-00910-KM-MAH Document 130 Filed 03/22/16 Page 7 of 13 PagelD: <pagelD>

- 42a of which necessitates fulfilling the requirements of due process. See Wilkinson
v. Abrams, 627 F.2d 650, 664 (3d Cir. 1980) (“State statutes providing for the
payment of unemployment compensation benefits create in the claimants for
those benefits property interests protected by due process.”). Custin claims
that he was denied due process because (1) he was not provided proper notice
of a hearing, (2) he was not provided with copies of documents used against
him at that hearing, and (3) the Board of Review failed to appropriately
evaluate the evidence.
The question here centers on whether a reasonable official on the
Appeals Tribunal and Board of Review would have understood that these
failures violated due process. That raises factual issues that cannot be
disposed of on a motion to dismiss. I therefore will deny the motion to dismiss
the complaint based on qualified immunity, but without prejudice to
reassertion of qualified immunity via a motion for summary judgment.
C. Failure to State a Claim
The State Defendants move to dismiss the complaint on the grounds that
it is vague and conclusory as to the relief sought and because there are no
allegations in the complaint relating to any act or omission by any of the
individual state defendants. (Br. at 6, 19) Although it is true that the complaint
fails to specifically name the individual state defendants when describing the
allegedly unconstitutional actions, this pro se complaint requires a more liberal
reading. “Where the plaintiff is a pro se litigant, the court has an obligation to
construe the complaint liberally.” Giles v. Kearney, 571 F.3d 318, 322 (3d Cir.
2009) (citing Haines v. Kemer, 404 U.S. 519, 520-21 (1972); Gibbs v. Roman,
116 F.3d 83, 86 n. 6 (3d Cir. 1997). In that spirit, the complaint should be
construed such that Custin intends to refer to Commissioner Wirths when he
alleges actions or omissions by NJDOL and to Sieber, Yarbrough and Maddow
in the allegations relating to the Board of Review. Custin’s claims seem to be
that the NJDOL and the Board of Review violated (a) the “when due” clause of

7

<3

Case 2:12-cv-00910-KM-MAH Document 130 Filed 03/22/16 Page 8 of 13 PagelD: <pagelD>
- 43a the Social Security Act, 42 U.S.C. § 503(a)(1), (b) the Eighth Amendment, and
(c) the Due Process Clause of the Fourteenth Amendment.
1. Social Security Act Claim
Custin appears to attack Section 43:21-5(b) of the New Jersey
Unemployment Compensation Law, and Section 43:21-24.19 of the New Jersey
Extended Benefit Law, as violative of the “when due” clause of the Social
Security Act, 42 U.S.C. § 503(a)(1). (Compl. p. 6) As previously explained, the
“when due” clause conditions payment to a state on that state’s having laws
which “include provision for [] such methods of administration...as are found
by the Secretary of Labor to be reasonably calculated to insure full payment of
unemployment compensation when due.” 42 U.S.C. § 503(a)(1). (See ECF no.
92, Opinion at 12)
Custin challenges N.J.S.A. § 43:21-5(b), which provides that an
individual suspended or discharged for misconduct is ineligible for
unemployment benefits for a certain number of weeks thereafter.1 Custin

1

The full text provides:
For the week in which the individual has been suspended or discharged for
misconduct connected with the work, and for the seven weeks which immediately
follow that week, as determined in each case.
For the week in which the individual has been suspended or discharged for
severe misconduct connected with the work, and for each week thereafter until the
individual becomes reemployed and works four weeks in employment, which may
include employment for the federal government, and has earned in employment at
least six times the individual's weekly benefit rate, as determined in each case.
Examples of severe misconduct include, but are not necessarily limited to, the
following: repeated violations of an employer's rule or policy, repeated lateness or
absences after a written warning by an employer, falsification of records, physical
assault or threats that do not constitute gross misconduct as defined in this section,
misuse of benefits, misuse of sick time, abuse of leave, theft of company property,
excessive use of intoxicants or drugs on work premises, theft of time, or where the
behavior is malicious and deliberate but is not considered gross misconduct as defined
in this section.
In the event the discharge should be rescinded by the employer voluntarily or
as a result of mediation or arbitration, this subsection (b) shall not apply, provided,
however, an individual who is restored to employment with back pay shall return any
benefits received under this chapter for any week of unemployment for which the
individual is.subsequently compensated by the employer.
If the discharge was for gross misconduct connected with-the-work-because_o£.
the commission of an act punishable as a crime of the first, second, third or fourth
8

Case 2:12-cv-00910-KM-MAH Document 130 Filed 03/22/16 Page 9 of 13 PagelD; <pagelD>
- 44a argues that this provision inconsistently allows the NJDOL to deny eligibility
for unemployment benefits to people who were discharged for misconduct but
whom the employer determined would be rehireable, as was the case with
Custin himself. I fail to see any serious inconsistency, but that is not the point.
The relevant provision of the Social Security Act requires only that a
state’s administration methods reasonably provide for the payment of
unemployment benefits when due. NJSA § 43:21-5(b) is directed to that end. it
defines when unemployment benefits, in certain circumstances, are or are not
due. Custin’s real objection is that, in his circumstances, under the statute,
benefits were not “due” him. That is a very different issue. I cannot discern
from the complaint the basis for a complaint that the statute fails to conform to
the Social Security Act’s general mandate that State procedures be designed
reasonably to insure full payment of benefits when due.
Custin also challenges N.J.S.A. § 43:21-24.19, although it is not clear
which subsection he takes issue with a Custin’s claim appears to be that the

degree under the "New Jersey Code of Criminal Justice," N.J.S.2C:1-1 et seq., the
individual shall be disqualified in accordance with the disqualification prescribed in
subsection (a) of this section and no benefit rights shall accrue to any individual based
upon wages from that employer for services rendered prior to the day upon which the
individual was discharged.
.
The director shall insure that any appeal of a determination holding the
individual disqualified for gross misconduct in connection with the work shall be
expeditiously processed by the appeal tribunal.
N.J.S.A. § 43:21-5(b).
2
The full text provides:
a. Notwithstanding the provisions of section 6 of P.L.1970, c. 324 (C. 43:2124.12) an individual shall be ineligible for payment of extended benefits for any week
of unemployment in his eligibility period if it is determined during such period:
(1) The individual failed to accept any offer of suitable work as defined m
paragraph c. or failed to apply for any suitable work to which the individual was
referred to by the employment service or the director; or
(2) The individual failed to actively engage in seeking work as prescribed under
b. Any individual who has been found ineligible for extended benefits by reason
of the provisions in paragraph a. of this section shall also be denied benefits beginning
with the first day of the week following the week in which the failure occurred and
-until the individual has been employed in each_of 4 subsequent weeks (whether or not
consecutive) and has earned remuneration equal to not less than 4 times the
individual's weekly extended benefit rate.

Case 2:12-cv-00910-KM-MAH Document 130 Filed 03/22/16 Page 10 of 13 PagelD: <pagelD>
- 45a -

c. For purposes of this section the term suitable work means, with respect to
any individual, any work which is within such individual’s capabilities; this work shall
be held to be suitable only:
, .
(1) If the gross average weekly remuneration payable for the work exceeds the
sum of: the individual's weekly extended benefit rate as determined under section 8 of
P L 1970 c 324 (C. 43:21-24.14), plus the amount, if any, of supplemental
unemployment benefits (as defined in Section 501(c)(l 7) of the Internal Revenue Code of
1954) payable to the individual for the respective week;
(2) If the position pays wages not less than the higher of
(a) The minimum wage provided by Section 6(a)(1) of the Fair Labor Standards
Act of 1938 (29 U.S.C. 206), without regard to any exemption; or
(b) The applicable state or local minimum wage;
(3) Provided, however, that no individual shall be denied extended benefits for
failure to accept an offer of or apply for any job which meets the definition of suitable
work as described above if:
(a) The position was not offered to the individual in writing or was not listed

with the employment service;

, _ ...

,

(b) The failure could not result in a denial of benefits under the definition ot
suitable work for regular benefits as provided under subsection (c) of R.S. 43:21-5 to
the extent that the criteria of suitability in that section are not inconsistent with the
provisions of this paragraph c.;
.
...
(c) The individual furnishes satisfactory evidence to the division that his
prospects for obtaining work in his customary occupation within a reasonably short
period are good. If the evidence is deemed satisfactory for this purpose, the
determination of whether any work is suitable with respect to the individual shall be
made in accordance with the definition of suitable work for regular benefit claimants
as provided under subsection (c) of R.S. 43:21-5 without regard to the definition
specified by this paragraph c.
d. Notwithstanding the provisions of section 6 of P.L.1970, c. 324 (C. 43:2124 12) to the contrary, no work shall be deemed to be suitable work for an individual
which does not accord with the labor standard provisions required by Section
3304(a)(5) of the Internal Revenue Code of 1954 and subsection (c) of R.S. 43:21-5.
e. For the purposes of subparagraph (2) of paragraph a. of this section, an
individual shall be treated as actively engaged in seeking work during any week if
(1) The individual has engaged in a systematic and sustained effort to obtain
work during the week, and
(2) The individual furnishes tangible evidence that he has engaged in this effort
during d^weekpioyment
shafl refcr ^ claimant entitled to extended benefits
under this act to any suitable work which meets the criteria prescribed in paragraph
c.
g. An individual who has been disqualified for regular benefits under the
provisions of subsection (b) or (c) of R.S. 43:21-5 will not meet the eligibility
requirements for the payment of extended benefits unless the individual has had
employment subsequent to the effective date of disqualification for regular benefits
and has earned in employment remuneration equal to not less than four times the
-individual's.weekly benefit rate.
,
h (1) An individual claiming extended benefits who is - an - exhaustee,.as jieimeci
under paragraph j. of section 5 of P.L.1970, c. 324 (C. 43:21-24.11), and who is
10

I

Case 2:12-cv-00910-KM-MAH Document 130 Filed 03/22/16 Page 11 of 13 PagelD: <pagelD>
- 46a -

statute permits a finding of ineligibility for a claimant who was previously
found ineligible, even if that prior determination is under appeal. Custin alleges
that he saw a message online that indicated “Benefits Exhausted,” and that
thereafter, he was disqualified for benefits because he was “determined to be
disqualified or ineligible for benefits on a previous claim.” (Compl.

8-9)

N.J.S.A. § 43:21-24.19 concerns ineligibility for extended benefits. The
statute provides that an individual found to be disqualified for regular benefits
under N.J.S.A. § 43:21-5 “will not meet the eligibility requirements for the
payment of extended benefits” unless certain conditions are met. See N.J.S.A. §
43:21-24.19(g). The statute also provides that an individual who is an
“exhaustee,” defined as one who has received all of the regular benefits
available to him, “shall be disqualified for extended benefits” unless certain
conditions are met. See id. § 43:21-24.19(h).
Again, it is clear that Custin is aggrieved by being denied benefits under
these substantive provisions. It is not clear from the complaint how these
provisions violate the Social Security Act’s procedural requirement that a

subsequently discharged or suspended for misconduct connected with his work as
provided in subsection (b) of R.S. 43:21-5, shall be disqualified for extended benefits
for the week in which the separation occurs and for each week thereafter until he has
earned in employment remuneration equal to at least four times his weekly extended
benefit rate, notwithstanding the disqualifying period for regular benefits for
misconduct imposed under the provisions of subsection (b) of R.S. 43:21-5.
(2) An individual claiming extended benefits who is an exhaustee, as defined
under paragraph j. of section 5 of P.L.1970, c. 324 (C. 43:21-24.11), but has satisfied
the requirements of subparagraph c.(3)(c) of this section concerning prospects for
employment, and who subsequently fails without good cause either to apply for
available, suitable work when so directed by the employment office or the director or to
accept suitable work as defined in subsection (c) of R.S. 43:21-5 when offered to him,
or to return to his customary self-employment when directed by the director, shall be
disqualified for extended benefits. The disqualification shall be only for the week in
which the refusal occurs and for each week thereafter, until he has earned in
employment remuneration equal to at least four times his weekly extended benefit
rate, notwithstanding the disqualifying period for regular benefits for the refusal
normally imposed under the provisions of subsection (c) of R.S. 43:21-5 or the
-disqualification imposed in paragraph b. of this section for individuals who have not
satisfied the requirements of subparagraph c.(3)(c) of this section.
N.J.S.A. §43:21-24.19.
11

Case 2:12-cv-00910-KM-MAH Document 130 Filed 03/22/16 Page 12 of 13 PagelD: <pagelD>

- 47a state’s administrative processes function reasonably to ensure payment of
benefits when they are due.
In my prior Opinion, I found that Custin had failed to allege a cognizable
claim under the “when due” clause of the Social Security Act. On
reconsideration of the same contentions, I reach the same conclusion.
2. Eighth Amendment Claim
The Eighth Amendment provides that “[excessive bail shall not be
required, nor excessive fines imposed, nor cruel and unusual punishments
inflicted.” As I explained in my prior opinion, the Eighth Amendment does not
apply here because it is applies to bail, fines, criminal punishment, and closely
allied penalties. (ECF no. 82, Opinion at 11) Here, Custin alleges that
“disqualification from EB benefits is unusual and is unconstitutional under
[the Eighth Amendment] because it disqualifies a claimant twice on the same
charge.” (Compl. ^ 9) Custin objects to the fact that one of his applications for
benefits was denied on the basis that he had previously been determined to be
ineligible on a prior claim, although he was appealing that prior determination.
Even given a liberal construction, these allegations cannot be said to relate to
bail, fines criminal punishment, or anything closely analogous to them.
Accordingly, Custin has failed to state a claim under the Eighth Amendment.
3. Due Process Claim
Finally, Custin appears to contend that the two state statutes cited above
deprive persons of property without due process of law, and that the NJDOL
and its Board of Review violated his due process rights. “Procedural due
process imposes constraints on governmental decision which deprive
individuals of liberty’ or ‘property’ interests within the meaning of the Due
Process Clause.” Mathews v. Eldridge, 424 U.S. 319, 332, 96 S.Ct. 893 (1976).
Unemployment benefits are considered to be property interests. See Wilkinson,
627 F.2d at 664 (“State statutes providing for the payment of unemployment
compensation benefits create in the claimants for those benefits property
interests protected by due process.”).
12

Case 2:12-cv-00910-KM-MAH Document 130 Filed 03/22/16 Page 13 of 13 PagelD: <pagelD>

- 48a It is not clear how the two statutes in themselves work a due process
violation. (See ECF no. 82, Opinion at 12). Custin has alleged, however, that
the NJDOL and the Board of Review committed various due process violations,
including (1) failing to provide Custin with a copy of all documents used in his
hearings (Compl.

2, 3, 11), (2) failing to notify Custin of his appellate rights

(Compl. UU 5, 6, 7), (3) failing to provide proper notice of hearings (Compl. f
10), and (4) failing to properly consider a settlement payment in determining
eligibility for benefits (Compl. Iff 11-14). At this stage of the proceedings, I find
these allegations sufficient to state a claim. The State Defendants contend that
Custin has received “all the process that is due,” but I cannot determine
whether that is the case without the benefit of discovery. I will therefore deny
the motion to dismiss as to Custin’s due process claim.
CONCLUSION
For the reasons set forth above, the State Defendants’ motion to dismiss
is granted to the extent that Defendant NJDOL is dismissed from this action,
and that the claims based on the Eighth Amendment and the Social Security
Act are dismissed with prejudice. The motion is otherwise denied. An
appropriate Order follows.
Dated: March 22, 2016

13

Case 2:12-cv-00910-KM-MAH Document 131 Filed 03/22/16 Page 1 of 2 PagelD: 1135
- 49a UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
JOHN M. CUSTIN,

Civ. No. 12-910 (KM)
Plaintiff,
ORDER

v.
HAROLD J. WIRTHS, et al •f
Defendants.

KEVIN MCNULTY. U.S.D.J.:
THIS MATTER having been opened to the Court by Defendants New
Jersey Department of Labor, J. Wirths, Joseph Sieber, Gerald Yarbrough, and
Jerald L. Maddow (collectively, “State Defendants”), on their motion to dismiss
the Third Amended Complaint pursuant to Fed. R. Civ. P. 12(b)(1) for lack of
subject matter jurisdiction and Fed. R. Civ. P. 12(b)(6) for failure to state a
claim (ECF no. 94); and Plaintiff John M. Custin having filed an opposition
(ECF no. 97); and the Court having considered the submissions and decided
the matter without oral argument, see Fed. R. Civ. P. 78; for the reasons
expressed in the accompanying Memorandum Opinion, as well as the Court’s
prior opinion in this matter (ECF no. 82); and good cause appearing therefor:
IT IS this 22nd day of March, 2016,
ORDERED that the motion to dismiss the complaint (ECF no. 94) is
GRANTED in part and DENIED in part, as follows:
1. All claims against Defendant New Jersey Department of Labor are
DISMISSED WITH PREJUDICE.
2. As to the remaining defendants, all claims based on alleged violations
of the Eighth Amendment and the Social Security Act are DISMISSED WITH

l

Case 2:12-cv-00910-KM-MAH Document 131 Filed 03/22/16 Page 2 of 2 PagelD: 1136
- 50a PREJUDICE, but the motion to dismiss is DENIED as to the claims based on
alleged violations of the Due Process Clause of the Fourteenth Amendment.

5.

HON. KEVIN MCNULTY, U/g.D)J.

2

Case 2:12-cv-00910-KM-MAH Document 82 Filed 01/31/14 Page 1 of 14 PagelD: 649
- 51aUNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY

JOHN M. CUSTIN,

Civ. No. 12-910 (KM)
Plaintiff,
OPINION

v.
HAROLD J. WIRTHS, State of New
Jersey Commissioner of Labor;
JOSEPH SIEBER, GERALD
YARBROUGH, JERALD L.
MADDOW, New Jersey Board of
Review; HILDA S. SOLIS, U.S.
Secretary of Labor; SETH D.
HARRIS, Acting U.S. Secretary of
Labor, and JANE OATES, U.S.
Assistant Secretary of
Employment and Training
Administration
Defendants.

KEVIN MCNULTY. U.S.D.J.:
This action was filed by John M. Custin, pro se, against the
Commissioner of the New Jersey Department of Labor (“NJDOL”); three NJDOL
officials who sat on its Board of Review (collectively with the Commissioner, the
“State Defendants”); and the current and former United States Secretary of
Labor and the Assistant Secretary of Employment and Training Administration
(collectively, the “Federal Defendants”). Mr. Custin filed this action, which
alleges constitutional and statutory violations, after a series of unfavorable
eligibility determinations by the NJDOL, in which he was denied certain
unemployment benefits. The State Defendants ask this Court to abstain from
exercising jurisdiction, citing Younger v. Harris, 401 U.S. 37 (1971). The
Federal Defendants move to dismiss Mr. Custin’s claims for lack of subject
matter jurisdiction and failure to state a claim. As explained below, I will deny
the State Defendants’ motion. I will grant the motion of the Federal Defendants,
and dismiss Mr. Custin’s claims against them.

Case 2:12-cv-00910-KM-MAH Document 82 Filed 01/31/14 Page 2 of 14 PagelD: 650
- 52a Facts and Administrative History
Mr. Custin worked at Wal-Mart from April 2008 through April 2010. His
employment was terminated on April 26, 2010.
l.

First Administrative Action

Following that termination, Mr. Custin filed a claim for unemployment
benefits. On May 13, 2010, the NJDOL found him eligible.
Wal-Mart initiated an administrative action when it appealed Mr.
Custin’s eligibility determination to the Appeals Tribunal of the NJDOL. In a
telephonic hearing, it claimed that Mr. Custin was a repeated no-show who did
not call in his absences, pursuant to Wal-Mart’s standard operating
procedures. Mr. Custin claimed that there were problems with the call-in
number and that Wal-Mart advised him he was “re-hirable” in his exit
interview. The Appeals Tribunal found that Wal-Mart had discharged him for
misconduct. It ruled that Mr. Custin was disqualified from receiving benefits,
pursuant to N.J.S.A. 43:21-5(b), for the period from April 18, 2010 to May 29,
2010.
Mr. Custin appealed to the NJDOL’s Board of Review, which affirmed the
ruling of the Appeals Tribunal. He then appealed to the New Jersey Superior
Court, Appellate Division, contending that he had been denied due process.
The Appellate Division affirmed the Appeals Tribunal’s disqualification finding,
and declined to consider the due process issue because Mr. Custin did not
raise it before the Appeals Tribunal.
u.

Second Administrative Action

Mr. Custin then initiated a short-lived second administrative action
before the Appeals Tribunal. Based on the disqualification ruling in the first
administrative action, NJDOL had requested that he refund $1,285 in benefits
that he received in May 2010. Custin filed, but then withdrew, an appeal of
NJDOL’s refund request.
iii.

Third Administrative Action

From May 29, 2010, through December 3, 2011, Mr. Custin received
unemployment benefits up to the maximum amount of $6682, plus each
allowable tier of “emergency unemployment compensation.” Then, on December
4, 2011, he filed a claim for extended benefits. The NJDOL rejected this claim,
pursuant to N.J.S.A. § 43:31-24.19(g), because Custin had not earned any
wages since his initial claim in April 2010.1 In December 2011, he appealed
~

v

An- individual- who -has -been disqualified for regular_benefits under______
the provisions of subsection (b) or (c) of R.S. 43:21-5 will not meet
the eligibility requirements for the payment of extended benefits
2

Case 2:12-cv-00910-KM-MAH Document 82 Filed 01/31/14 Page 3 of 14 PagelD: 651
- 53a this denial to the Appeals Tribunal, which affirmed that ineligibility finding in
February 2012. He further appealed to the Board of Review, which remanded
the matter for a new hearing. In September 2012, the Appeals Tribunal once
again affirmed the ineligibility finding. Mr. Custin did not appeal this third
administrative action to the Superior Court.
IV.

Fourth Administrative Action

In March of 2012, Mr. Custin filed a ‘transitional’ claim, seeking benefits
going forward, on the theory that he had now earned wages that would re­
qualify him for benefits. The new alleged wages consisted of funds that he
obtained through settlement of a separate discrimination lawsuit against WalMart. The NJDOL rejected his claim. On March 28, 2012, he initiated a fourth
administrative action by appealing this rejection to the Appeals Tribunal. On
August 30, 2012, the Appeals Tribunal affirmed the ineligibility finding, finding
that the funds he obtained in the settlement were not re-qualifying wages
under NJSA § 43:21-4(e)(6).2 Mr. Custin did not appeal further.
v.

Fifth Administrative Action

Finally, on December 30, 2012, Mr. Custin filed a new claim seeking to
establish a new “base year” on which to base further benefits. NJDOL reasoned
that his eight weeks of work at Target Corp. in late 2012 did not constitute a
sufficient number of “base weeks” and did not yield sufficient “base wages” to
re-entitle him to unemployment benefits, and declared him ineligible on
January 23, 2013. Mr. Custin appealed to the Appeals Tribunal. On March 19,
2013, the Appeals Tribunal affirmed the ineligibility finding.
Mr. Custin and the State Defendants dispute whether he further
appealed that March 19, 2013 determination. The State Defendants contend
that Mr. Custin appealed it by letter dated August 12, 2013. Mr. Custin
vehemently denies this. The parties have placed the relevant papers before me,
and I will make preliminary findings on this issue, for purposes of this motion.
(Seepp. 4-5, infra.)
unless the individual has had employment subsequent to the
effective date of disqualification for regular benefits and has
earned in employment remuneration equal to not less than four
times the individual’s weekly benefit rate.
N.J.S.A. § 43:21-24.19(g) (emphasis added).
2 N.J.S.A. § 43:21-4(e)(6) provides: “The individual applying for benefits in any
successive benefit year has earned at least six times his previous weekly benefit
amount and-has -had-four weeks of employment .since .the .beginning of the immediately
preceding benefit year. This provision shall be in addition to the earnings
requirements specified in paragraph (4) or (5) of this subsection, as applicable.”
3

Case 2:12-cv-00910-KM-MAH Document 82 Filed 01/31/14 Page 4 of 14 PagelD: 652

- 54a The State Defendants* Motion to Dismiss
The State Defendants offer a single argument in support of their Motion
to Dismiss: that this Court must abstain from exercising jurisdiction over Mr.
Custin’s claims against them pursuant to Younger v. Harris, 401 U.S. 37
(1971). Younger abstention is appropriate, they argue, because there is a
pending state proceeding, judicial in nature, in which Mr. Custin can assert
the same legal claims he brings here. Applying the Younger line of cases, I find
the State Defendants’ argument to be inadequate.
A federal court must abstain from exercising jurisdiction where 1) there
is a pending state proceeding 2) implicating important state interests and 3)
providing an adequate opportunity to raise constitutional challenges. Middlesex
County Ethics Comm. v. Garden State Bar Ass’n, 457 U.S. 423, 432 (1982)
(citing Younger). As the moving party, the state bears the burden of
demonstrating that these circumstances exist. See, e.g., Durga v. Bryan, 2010
U.S.
Dist.
LEXIS
106862, *7-8
(D.N.J.
Oct.
5,
2010)(Brown,
C.J.)(“Axiomatically, the State, as the moving party, bears the burden of
production and persuasion to prevail in the present motion. That burden is
especially critical in the present matter, where the State asks this Court to
sidestep its Virtually unflagging’ obligation to consider the pro se complaint of
a plaintiff that asserts the denial of rights protected by the United States
Constitution.”)(quoting O'Neill v. City of Philadelphia, 32 F.3d 785, 794 (3d Cir.
1994)).
The “pending” state proceeding, according to the State Defendants, is Mr.
Custin’s purported appeal of the March 19, 2013 Appeals Tribunal decision in
the Fifth Administrative Action, docket number 412,642. (Letter of Christopher
M. Kurek filed Dec. 30, 2013 (Doc. No. 80)). Whether a state proceeding is
pending is not ordinarily a difficult determination. Here, however, the
administrative record is muddled. I conclude that there is no relevant,
currently pending proceeding, for the following reasons.
The question is whether there is a pending appeal in the Fifth
Administrative Action. That Action bears the docket number 412,642. Mr.
Custin’s letter of August 12, 2013 does not request any appeal; it does not refer
to this this docket number; it does not mention the March 19, 2013 decision of
the Appeals Tribunal. Rather, the letter requests permission to file certain
documents and seeks the issuance of a subpoena to Wal-Mart prior to an
August 22, 2013 hearing. Mr. Custin explains that his August 12, 2013 letter
was sent in preparation for a hearing that the Appeals Tribunal scheduled for
the following week on the 420,125 docket. He further explains that the 420,125
docket is a “mistaken docket,” and that the hearing officer stated as much
when Mr. Custin advised him that he was not appealing the March 19, 2013
decision: (Jd.-at-p. 2)-.—------- --------- -------------------------------------- ------------------

4

Case 2:12-cv-00910-KM-MAH Document 82 Filed 01/31/14 Page 5 of 14 PagelD: 653

- 55a Handwritten across the top section of the letter is the number “420,125.”
Nevertheless, NJDOL appears to have stamped the letter and made additional
handwritten notations that the letter constituted an appeal of the March 19,
2013 determination under docket number 412,642.
The provenance of the “420,125” docket notation remains mysterious.
When the State Defendants first filed this motion in August of 2013 (Doc. No.
44), they argued that 420,125 was the docket number of the currently pending
state proceeding in favor of which they sought Younger abstention. They
admitted, however, that they did not know what the proceeding was about.
Now, the State contends that docket 412,642—the Fifth Administrative
Action—is the currently pending proceeding for Younger purposes. On
December 18, 2013, just days before the State Defendants filed their most
recent letter in this matter (Doc. No. 80), the Board of Review issued a notice of
appeal recognizing the existence of an appeal of the March 19, 2013 decision in
412,642. That notice attaches Custin’s August 2013 letter. (Doc. No. 81 at p.
14).
The record, as I say, is muddled. This much, however, is clear from the
documents—and the August 12, 2013 letter in particular. Mr. Custin never
evidenced any clear intention to appeal the Appeals Tribunal’s decision in the
Fifth Administrative Action. I do not find any clear evidence that there is a
currently pending state proceeding. The first prong of the Younger test is not
satisfied.
Even if I found that the State administrative appeal was pending,
however, I could not find that the third prong of Younger is satisfied. Such an
appeal would not afford Mr. Custin the opportunity to pursue the
constitutional claims raised in this action.3 For example, Mr. Custin’s
allegations that he was denied due process and suffered the application of an
allegedly unconstitutional statute (N.J.S.A. § 43:21-5(b)) pertain almost entirely
to NJDOL’s denial of initial benefits in 2010 (the subject of the now-ended First
Administrative Action). The allegedly pending state appeal, however, relates to
the Fifth Administrative Action and NJDOL’s 2013 determination that Custin
was ineligible for a new benefits base year commencing on December 30, 2012.
The two proceedings involve separate facts, separate administrative
determinations, and separate legal issues. In this action, Mr. Custin challenges
the constitutionality of N.J.S.A. 43:21-5(b), which governed his initial
disqualification based on his discharge for misconduct. Those issues are
unrelated to the Fifth Administrative Action, which involved N.J.S.A. 43:21-4(e)
and the calculation of a new base year. In short, even if the claimed appeal
3 I entered a letter order (Doc. No. 78) requesting that the State Defendants
address the issue of whether Mr. Custin’s claims could be brought in any purportedly
pending state proceeding. (See Letter of Kurek, Doc. No. 90). They have not done so.

5

Case 2:12-cv-00910-KM-MAH Document 82 Filed 01/31/14 Page 6 of 14 PagelD: 654

- 56a were pending, it would not afford an opportunity for Mr. Custin to raise the
constitutional claims asserted here, and would not satisfy the third part of the
Younger test. See Middlesex at 432 (setting forth element of “adequate
opportunity to raise constitutional challenges”); Habich v. City of Dearborn, 331
F.3d 524, 530-532 (6th Cir. 2003)(upholding District Court’s refusal to abstain
as proper, given that ongoing proceeding dealt with narrow issues unrelated to
plaintiffs due process challenges to alleged procedural violations and other
earlier actions by city, such that plaintiffs claims were collateral to the ongoing
proceeding)(citing Gerstein v. Pugh, 420 U.S. 103 (1975)(no Younger abstention
where criminal defendant brings federal suit challenging length of pretrial
detention, as that issue was not related to and could not be raised in his
defense in the state proceeding)).
Accordingly, the State Defendants have not met their burden of
demonstrating that Younger abstention is appropriate. Their motion is denied.
The Federal Defendants* Motion to Dismiss
Mr. Custin’s suit, insofar as it pertains to the Federal Defendants,
challenges the decision of the United States Department of Labor (USDOL) to
certify the NJDOL’s unemployment compensation program, and alleges that a
USDOL regulation, 20 CFR § 615.8(c)(2), is unconstitutional.4 He names the
former Secretary of Labor, the Deputy Secretary of Labor (who was at one point
Acting Secretary), and an Assistant Secretary of Labor, not specifying whether
he is pursing them in their personal or official capacities. (See Doc. No. 38).
The Federal Defendants, appearing in their official capacities (See Ltr. Of
Karen Stringer (Doc. No. 79) at n.l), argue, inter alia, that Mr. Custin lacks
standing to sue them because he has neither pled a sufficient connection
between their alleged actions and his alleged injury, nor pled that his alleged
injury would likely be redressed by the relief sought against them. (See Doc.
No. 43 at pp. 18-22; Doc. No. 79).
4

A disqualification [from benefits] in a State law, as to any individual
who voluntarily left work, was suspended or discharged for
misconduct, gross misconduct or the commission or conviction of a
crime, or refused an offer of or a referral to work, as provided in
sections 202(a) (4) and (6) of the Act... (2) As applied to eligibility for
Extended Benefits, shall require that the individual be employed
again subsequent to the date of the disqualification before it may be
terminated, even though it may have been terminated on other
grounds for regular benefits which are not sharable; and if the State
law does not also apply this provision to the payment of what would
otherwise be sharable regular benefits, the State will not be entitled to
a payment under the Act and § 615.14 in regard to such regular
compensation^ ]~

20 CFR § 615.8(c).
6

Case 2:12-cv-00910-KM-MAH Document 82 Filed 01/31/14 Page 7 of 14 PagelD: 655

- 57a A plaintiff must establish his standing to sue under Article III of the
United States Constitution. This ‘constitutional standing’ has three essential
elements:
(1) “the plaintiff must have suffered an ‘injury in fact’ an invasion of a legally protected interest which is
(a) concrete and particularized and (b) ‘actual or
imminent’, not “conjectural” or “hypothetical[.] nm
(2) “there must be a causal connection between the
injury and the conduct complained of - the injury
has to be ‘fairly . . . trace[able] to the challenged
action of the defendant, and not . . . the result [of]
the independent action of some third party not
before the court.’”
(3) “it must be likely,’ as opposed to merely
‘speculative,’ that the injury will be ‘redressed by a
favorable decision.”*
Lujan v. Defenders of Wildlife, 504 U.S. 555, 560-561 (U.S. 1992)(intemal
citations omitted). At the pleading stage, general factual allegations will suffice
to discharge the plaintiffs burden. Id. at 561.
In addition, a plaintiff, particularly one challenging agency action, must
show that he has “prudential standing.” This requires a showing that the
plaintiff is asserting his own legal interests, as opposed to those of a third party
or the general public, and he must show that his “interests are arguably within
the zone of interests intended to be protected by the statute, rule or
constitutional provision on which the claim is based.” Davis v. Philadelphia
Housing Auth., 121 F.3d 92, 96 (3d Cir. 1997). The test is not demanding; it is
meant only to screen out suits that are marginally related to or inconsistent
with the purposes of the underlying statute. Match-E-Be-Nash-She-Wish Band
of Pottawatomi Indians v. Patchak, 132 S. Ct. 2199, 2210 (2012).
As discussed below, I find that Mr. Custin lacks standing to bring a claim
challenging the USDOL’s certification of New Jersey’s program, but that he
does have standing to challenge 20 CFR § 615.8(c)(2). As to that regulation,
however, he has failed to state any cognizable cause of action, and has further
failed to bring his facial challenge within the applicable statute of limitation.
1. Improper Certification Claim
I first examine Mr. Custin’s claim that the Federal Defendants “abuse
their discretion” by “continuing] to certify the state of NJ [unemployment
insurance] program as compliant to federal law when it is not.” (Third Amended
Complaint (Doc. 38) at ^[1). That quoted statement is the only factual allegation

7

Case 2:12-cv-00910-KM-MAH Document 82 Filed 01/31/14 Page 8 of 14 PagelD: 656
- 58a in the complaint regarding USDOL’s certification of the New Jersey program.5 I
find standing to be lacking because there is no plausible allegation (a) that the
federal government’s conduct and the alleged injury are causally connected; or
(b) that the relief sought (decertification of the State program) would remedy
the claimed injury.
Plaintiffs claimed injury— denial of certain unemployment benefits— is
apparent. (Id. at UK 1-14). Less apparent, however, is the alleged causal
connection between Mr. Custin’s injury and the Federal Defendants’
certification of the NJDOL’s unemployment insurance program. Such a causal
connection is not set forth, even generally, in the factual allegations of the
complaint. I am mindful that Mr. Custin is proceeding pro se, and I have read
his complaint and motion papers with a liberal eye. The unexpressed
assumption seems to be that the alleged injury would not occurred if the
USDOL did not certify the NJDOL’s unemployment benefits program as
compliant. It is clear that the State denied benefits based on State law. The
manner in which a compliant state program would have resulted in an award
of benefits is not specified. The alleged connection between the claim and the
injury is too remote and speculative to accept in the absence of plausible
supporting factual allegations.
In that conclusion I am persuaded by the reasoning of a sister court in a
similar case. In Horack v. Minott, the District of Delaware agreed with the
Secretary of Labor that the plaintiff did not show any of the three elements of
constitutional standing. 1995 U.S. Dist. LEXIS 7583, *11-16 (D. Del. May 26,
1995). After the Delaware department of labor denied benefits, that plaintiff
brought a facial and as-applied challenge to the statute on which the
ineligibility finding was based, and further argued that the USDOL should not
have certified the state program. The District Court found that the denial was
premised on the state’s application of its own statute. Because “the federal
government played no role in the decision of the State of Delaware to deny
unemployment compensation to plaintiff there is an insufficient causal link
between defendant [Secretary of Labor’s] conduct and plaintiffs alleged injury.”
Id. at *12-14.
Here, too, the actual denials of which Mr. Custin complains were the
product of the State’s application of its own statutes. The federal government’s
certification of the state program is simply too far removed from the alleged
injury to confer standing.

5 The only other mention of the USDOL and certification is in the demand for
relief: “an injunction to prevent further certification of the state of New Jersey
~ unemployment program by the U.S. Secretary of Labor and barring the state against
any further federal funding until the state of New Jersey is in conformity with the
Constitution of the United States and the Social Security Act.” (Id. at ‘DEMAND’).
8

Case 2:12-cv-00910-KM-MAH Document 82 Filed 01/31/14 Page 9 of 14 PagelD: 657

- 59aIf anything distinguishes this case from Horack, it is Mr. Custin’s
statement in his papers defending against this motion that he was denied
procedural due process due to the failure to decertify (a claim that he has not
pled). (Letter Brief., Doc. 81 at part II, p. 6). Again, it is difficult to understand
why NJDOL’s alleged procedural irregularities would not have occurred if
USDOL had denied certification of the state program.6 Lacking plausible
factual allegations, I cannot find the requisite causal connection.
Closely related is another problem. Even if causation is assumed, I
cannot find any reasonable allegation that the relief sought would redress Mr.
Custin’s injury. He seeks “an injunction to prevent further certification of the
state of New Jersey unemployment program by the U.S. Secretary of Labor and
barring the state against any further federal funding until the state of New
Jersey is in conformity with the Constitution of the United States and the
Social Security Act.” (Third Am. Comp. (Doc. 38) at ‘DEMAND*). This remedy
would not restore his benefits. The immediate effect of the requested remedy
would be to strip New Jersey’s unemployment benefits program of funding.
Were that to occur, neither Mr. Custin’s nor anyone else’s benefits would be
paid by the State. See Horack at *14-15. Mr. Custin’s complaint does not
specifically articulate how decertification would “compel [NJDOL] to amend its
criteria for unemployment compensation benefits”—that is, to re-write the
various state statutes under which his claims were rejected—in such a way as
to ensure that he would receive benefits. See id. at *15. The claim is a highly
contingent one that I cannot accept without more specific factual allegations.
The complaint falls well short of alleging that Mr. Custin’s injuries would likely
be redressed if this Court granted the relief sought. See id.
For these two independent reasons, Mr. Custin’s challenge to the federal
certification of the state unemployment insurance program fails for lack of
standing.
2. Unconstitutional Regulation Claim
i.

Standing

Mr. Custin’s Third Amended Complaint alleges that the Federal
Defendants “use an unconstitutional and absurd federal regulation [20] CFR [§]
615.8(c)(2)[.]” (Doc. 38 at
1). It demands “a declaration that 20 CFR §
615.8(c)(2) and [N.J.S.A. §] 43:21-24.19 are unconstitutional - laws which
violate the intent of Congress in passing the SSA and are offensive to due
process and which aggravate a disproportional loss already suffered on the
original disqualification.” (Id. at ‘DEMAND*). These allegations are quite general
and nonspecific, and there are no other factual allegations concerning this
6 Except perhaps in the trivial sense that, but for federal certification, the State
program might never have existed at all.
9

Case 2:12-cv-00910-KM-MAH Document 82 Filed 01/31/14 Page 10 of 14 PagelD: 658

- 60a facial challenge to the regulation. That said, I consider the entire record before
me to determine whether Mr. Custin might have standing.
Mr. Custin’s letter brief suggests that this claim relates to his Third
Administrative Appeal. In the Third Administrative Appeal, the NJDOL’s
Appeals Tribunal upheld the denial of extended benefits to Mr. Custin, finding
that his failure to secure any employment since he was first discharged
rendered him ineligible under N.J.S.A. § 43:21-24.19(g). (See 9/18/12 Decision
of the Appeals Tribunal (Doc. No. 43 at Ex. E)). This denial of extended benefits
seems to be what the Complaint refers to as the “aggravation of] a
disproportional loss already suffered on the original disqualification.”
The challenged federal regulation states that “A disqualification [from
benefits] in a State law...(2) As applied to eligibility for Extended Benefits, shall
require that the individual be employed again subsequent to the date of the
disqualification before it may be terminated, even though it may have been
terminated on other grounds for regular benefits which are not sharable; and if
the State law does not also apply this provision to the payment of what would
otherwise be sharable regular benefits, the State will not be entitled to a
payment under the Act and § 615.14 in regard to such regular compensation^]”
20 CFR § 615.8(c). The regulation thus imposes a condition: state law “shall
require” that certain disqualified individuals “be employed again” before their
disqualification is terminated and they may recover extended benefits.
As it happens, the New Jersey statute under which Mr. Custin was found
ineligible is somewhat stricter than the federal regulation requires. See N.J.S.A.
§ 43:21-24.19(g) (quoted at n.l, above). New Jersey’s statute adds the
requirement that the claimant, when re-employed, earn not less than four
times his weekly benefits rate. See N.J.S.A. § 43:21-24.19(g). It appears that
Mr. Custin would have been found ineligible even if the state statute exactly
mirrored the less strict federal regulation. But federal law does set a floor
beneath which state regulation cannot go. Thus, on the liberal assumption that
Mr. Custin is challenging the constitutionality of that federal “floor,” his injury
may be ‘fairly traceable’ to the federal regulation, which interlocks with the
applicable State statute. If the conditions on benefits imposed by the federal
statute were deemed unconstitutional, then it is possible that analogous
conditions in the State statute would fall as well. Therefore the relief requested
(invalidation of the federal regulation) would likely redress his injury. And, of
course, he also seeks invalidation of the State statute itself.
Under a liberal interpretation of these pro se pleadings, I find that
standing has been adequately alleged as to the claim of unconstitutional
regulation.

10

Case 2:12-cv-00910-KM-MAH Document 82 Filed 01/31/14 Page 11 of 14 PagelD: 659

- 61a u.

Failure to State a Claim

Included in the Federal Defendants’ motion to dismiss is the argument
that Mr. Custin “has failed to provide sufficient facts to show an entitlement to
relief.” (Br. in Supp. of Mot. to Dismiss at 22).
Mr. Custin’s claims with respect to 20 CFR § 615.8(c)(2) seem to be that
it violates (a) the Eighth Amendment, (b) the Due Process Clause of the
Fourteenth Amendment, and (c) the “when due” clause of the Social Security
Act, 42 U.S.C. 503(a)(1). The Federal Defendants respond that Mr. Custin “does
not even assert whether he is claiming a violation of substantive or procedural
due process[,] and the eighth amendment is clearly inapplicable. Moreover, the
contested provision is based on requirements of the Extended Unemployment
Benefits Act. 53 FR 27926, *27933.”
To this portion of the Federal Defendants’ motion I apply the usual
standard for motions to dismiss under Federal Rule of Civil Procedure 12(b)(6).
The moving party, ordinarily the defendant, bears the burden of showing that
no claim has been stated, Hedges v. United States, 404 F.3d 744, 750 (3d Cir.
2005), and the well-pleaded factual allegations of the complaint must be taken
as true, with all reasonable inferences drawn in plaintiffs favor. Phillips v.
County of Allegheny, 515 F.3d 224, 231 (3d Cir. 2008). The question is whether
the factual allegations are sufficient to raise a plaintiffs right to relief above a
speculative level, to the point of being “plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007); see also Umland v. PLANCO Fin. Servs.,
Inc., 542 F.3d 59, 64 (3d Cir. 2008). While “[t]he plausibility standard is not
akin to a ‘probability requirement’ ... it asks for more than a sheer
possibility.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). Where, as here, the
plaintiff is proceeding pro se, the complaint is “to be liberally construed,” and,
“however inartfully pleaded, must be held to less stringent standards than
formal pleadings drafted by lawyers.” Erickson v. Pardus, 551 U.S. 89, 93-94
(2007).
I first turn to the Eighth Amendment to the United States Constitution,
which provides: “Excessive bail shall not be required, nor excessive fines
imposed, nor cruel and usual punishments inflicted.” The Supreme Court has
stated: “Given that the Amendment is addressed to bail, fines, and
punishments, our cases long have understood it to apply primarily, and
perhaps exclusively, to criminal prosecutions and punishments.” BrowningFerris Indus, v. Kelco Disposal, 492 U.S. 257, 262 (1989)(holding that excessive
fines clause does not apply to punitive damages in a civil suit). At issue here is
the USDOL’s decision to require a formerly disqualified claimant to first be re­
employed for at least some period of time before being eligible for extended
unemployment benefits. That is obviously unrelated to bail. It does not
constitute a fine, either. See id. at 266-68 (“[T]he history, of the Eighth
Amendment convinces us that the Excessive Fines Clause was intended to limit
11

Case 2:12-cv-00910-KM-MAH Document 82 Filed 01/31/14 Page 12 of 14 PagelD: 660
- 62a only those fines directly imposed by, and payable to, the government.”). Finally,
the application of the Federal Defendants’ regulation is not a punishment for a
crime, let alone a cruel and unusual one. See Gregg v. Georgia, 428 U.S. 153,
172-173 (1976) (framing Eighth Amendment inquiry as whether, and to what
extent, conduct may be formally punished as criminal); Estelle v. Gamble, 429
U.S. 97, 103 n. 7 (1976). Mr. Custin, therefore, has no cognizable claim under
the Eighth Amendment.
Next, Mr. Custin appears to claim that 20 CFR § 615.8(c)(2), on its face,
deprives persons of property without due process of law. (See Third Amended
Complaint at |1). Without question, “[procedural due process imposes
constraints on governmental decisions which deprive individuals of liberty’ or
‘property’ interests within the meaning of the Due Process Clause,” and this
includes government benefits. Mathews v. Eldridge, 424 U.S. 319, 332 (1976).
Mr. Custin’s assertion that the challenged regulation deprives persons of due
process rings hollow, however. There is no allegation in the Third Amended
Complaint that the regulation somehow strips away any of the standard
procedural safeguards furnished by the rest of the Social Security Act, and the
regulation is not susceptible of such a reading. Mr. Custin himself took full
advantage of these procedures when he appealed the NJDOL’s rejection of his
application for extended benefits. Viewing the Third Amended Complaint as
liberally as possible, I still am unable to extract any concrete factual allegation
or articulated theory. The Court is left to speculate as to how 20 CFR §
615.8(c)(2) is alleged to work a deprivation of due process. Accordingly, I find
that Mr. Custin has failed to state any cognizable claim under the Due Process
Clause of the Fourteenth Amendment.
Finally, Mr. Custin’s facially attacks 20 CFR § 615.8(c)(2) by claiming
that it violates the Social Security Act’s “when due” clause, 42 U.S.C. §
503(a)(1). (Third Amended Complaint at 1J1). Section 503(a)(1) conditions
payments from the USDOL to state bodies (like NJDOL) on a finding by the
Secretary of Labor that the state’s law “includes provision for [] such methods
of administration....as are found by the Secretary of Labor to be reasonably
calculated to insure full payment of unemployment compensation when due.”
42 U.S.C. § 503(a)(1). Again, the USDOL regulation challenged here requires
states to condition the receipt of extended benefits on disqualified candidates’
having first returned to work. I am unable to discern how that USDOL
regulation is alleged to violate a Social Security Act provision that generally
requires state bureaucracies to function properly. I find, therefore, that Mr.
Custin has not alleged any cognizable legal claim concerning 20 CFR §
615.8(c)(2).
iii.

Statute of Limitations

Even if one or more of Mr. Custin’s claims concerning 20^ CFR §
615.8(c)(2) were sufficiently pled, it would be barred by the statute of
12

Case 2:12-cv-00910-KM-MAH Document 82 Filed 01/31/14 Page 13 of 14 PagelD: 661

- 63a limitations. Because these claims are facial challenges to the regulation, the
six-year limitations period began to run when the regulation was promulgated
in 1988.
“Every civil action commenced against the United States shall be barred
unless the complaint is filed within six years after the right of action first
accrues.” 28 U.S.C. § 2401. The threshold question is when the “right of action
first accrue[s]” in the context of a facial challenge to a regulation. In
Pennsylvania Dep’t of Public Welfare v. U.S. Dep’t of Health and Human
Services, 101 F.3d 939 (3d Cir. 1996), a plaintiff challenged the validity of a
regulation, alleging inadequate notice and comment procedures. The Third
Circuit held that such a claim accrued— and was also ripe for resolution—
when the rule was promulgated. It affirmed a dismissal based on the statute of
limitations. Id. at 944-47.
Logically, this accrual rule governs a facial challenge to a rule
promulgated by an agency. “On a facial challenge to a regulation, the
limitations period begins to run when the agency publishes the regulation in
the Federal Register.” Dunn-McCampbell Royalty Interest v. National Park Serv.,
112 F.3d 1283, 1287 (5th Cir. 1997) In Dunn-McCampbell, the Fifth Circuit
stated that facial challenges have a six-year statute of limitations commencing
when a rule is promulgated. Id. A fresh limitations period arises, however,
when the agency subsequently applies the rule against a party who challenges
such application on statutory or constitutional grounds. Id.; see Wind River
Mining Corp. v. United States, 946 F.2d 710, 716 (9th Cir. 1991) (“a substantive
challenge to an agency decision alleging lack of agency authority may be
brought within six years of the agency’s application of that decision to the
specific challenger” (emphasis added)).
Here, Mr. Custin challenges the Constitutional and statutory validity of
20 CFR § 615.8(c) on its face, seeking a declaratory judgment. The issues he
asserts arose at the time of promulgation, and were likewise fit for resolution
immediately thereafter. See Pennsylvania Dep’t of Public Welfare, 101 F.3d at
946-947; Strahan v. Linnon, 967 F. Supp. 581, 607 (D. Mass. 1997) (“plaintiffs
challenge to 50 C.F.R. § 402.03 is such a ‘policy-based’ facial challenge in that
his claim is that the regulation is plainly inconsistent with Congress’ mandate
in the ESA. Accordingly, the ‘grounds for such [a] challenge^ [should have
been] apparent to any interested citizen within a six-year period following the
promulgation of the [regulation].’...Wind River Mining [Corp. v. United States,
946 F.2d 710, 715 (9th Cir. 1991)] excuses litigants from the six-year
requirement only when the challenger <file[s] a complaint for review of the
adverse application of the [regulation] to the particular challenger.’ That
exception does not apply to the plaintiff.” (citations omitted)). Mr. Custin does
not bring an ‘as applied’ challenge which might potentially accrue at a later
date. Cf. Dunn-McCampbell, 112 F.3d at-1287\-Wind River, 946 F.2d at 716____

13

Case 2:12-cv-00910-KM-MAH Document 82 Filed 01/31/14 Page 14 of 14 PagelD: 662

- 64a I emphasize the distinction between a facial and as-applied challenge. A
specific challenge to an actual application of the regulation against Mr. Custin
by the Federal Defendants might entitle him to a “fresh” limitations period. It is
an open question, whether a state decision pursuant to a state statute that
conforms, as required, to federal law, can be said to be a fresh “application” of
federal law. For present purposes, however, it is clear that Mr. Custin’s
challenges are facial in nature.
The contents of 20 CFR § 615.8(c) were published in the Federal Reporter
on July 25, 1988. 53 Fed Reg 27937 (July 25, 1988). A facial challenge had to
be brought within six years of that date. It has therefore been time-barred for
over nineteen years.
Conclusion
For the reasons set forth above, the State Defendants’ Motion to Dismiss
on Younger abstention grounds is DENIED. The Federal Defendants’ Motion to
Dismiss is GRANTED, and Plaintiffs claims against the Federal Defendants are
hereby DISMISSED WITHOUT PREJUDICE. An appropriate order will follow.
(

HON. KEVIN MCNULTY
,
United States District Judge
Dated: January 31, 2014
Newark, New Jersey

14

Case 2:12-cv-00910-KM-MAH Document 83 Filed 01/31/14 Page 1 of 1 PagelD: 663
■ 65a •

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY

JOHN M. CUSTIN,

Civ. No. 12-910 (KM)
Plaintiff,
ORDER

v.

HAROLD J. WIRTHS, State of New
Jersey Commissioner of Labor;
JOSEPH SIEBER, GERALD
YARBROUGH, JERALD L.
MADDOW, New Jersey Board of
Review; HILDA S. SOLIS, U.S.
Secretary of Labor; SETH D.
HARRIS, Acting U.S. Secretary of
Labor, and JANE OATES, U.S.
Assistant Secretary of
Employment and Training
Administration
Defendants.

THIS MATTER having been opened to the Court on Motions to Dismiss
the Complaint by Defendants Hilda S. Solis, Seth D. Harris, and Jane Oates
(collectively, the “Federal Defendants”) [ECF No. 43], and by Harold J. Wirths,
Joseph Sieber, Gerald Yarbrough, and Jerald L. Maddow (collectively, the
“State Defendants”) [ECF No. 44] pursuant to Federal Rules of Civil Procedure
12(b)(1) and 12(b)(6); and the Plaintiff (pro se) having opposed the motions [ECF
Nos. 42, 81]; and the Defendants having submitted additional materials in
support of their motions [ECF Nos. 79, 80]; and this Court having considered
the papers before it pursuant to Federal Rule of Civil Procedure 78(b); for the
reasons stated in the Opinion filed on this date, and for good cause shown:
IT IS this 31st day of January, 2014,
ORDERED that the Federal Defendants’ Motion to Dismiss is GRANTED;
and Plaintiffs claims against the Federal Defendants are hereby DISMISSED
WITHOUT PREJUDICE, and it is further
ORDERED that the State Defendants’ Motion to Dismiss is DENIED.

r.
HON. KEVIN MCNULTY, ILS.D.J.

APPENDIX
APPENDIX D
Case # 12cv910
UNITED STATES DISTRICT COURT
FOR NEW JERSEY

John M. Custin,
Plaintiff-Appellant,
v.
Harold J. Wirths,et al.
Defendants/Appellees.

The United States District Court
For New Jersey

Discovery Orders of the Magistrate Judge and U.S. District Court of New Jersey
John M. Custin
P.O. Box 5631
Christiansted, VI 00823

-68a-

APPENDIX
APPENDIX D
Case # I2cv910
UNITED STATES DISTRICT COURT
FOR NEW JERSEY

John M. Custin,
Plaintiff-Appellant,
v.
Harold J. Wirths,et al.
Defendants/Appellees.

The United States District Court
For New Jersey

Discovery Orders of the Magistrate Judge and U.S. District Court of New Jersey
John M. Custin
P.O. Box 5631
Christiansted, VI 00823
FOR THE COURT:
s/ William T. Walsh
William T. Walsh,
Clerk of Court

Case 2:12-cv-00910-KM-MAH Document 168 Filed 02/08/17 Page 1 of 5 PagelD: 1682
- 66a UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
Martin Luther King Jr. Federal
Bldg. & U.S. Courthouse
50 Walnut Street, Room 2042
Newark, NJ 07102
(973) 776-7858

Chambers of

Michael A. Hammer
United States Magistrate Judge

February 8, 2017

To:

John M. Custin, Pro Se
54 Chestnut Drive
Wayne, NJ 07470

All counsel of record
LETTER OPINION AND ORDER
RE:

John M. Custin v. Harold J. Wirths, et. al.
Civil Action No. 12-910 (KMKMAHl

Dear Litigants:
Presently before the Court is Plaintiff pro se John M. Custin’s motion to compel
compliance with subpoenas served on non-parties New Jersey Department of Labor and
Workforce Development (“NJDOL-WD”), New Jersey Department of Labor-Unemployment
Insurance (“NJDOL-UI”), and Equifax Workforce Solutions, Inc. (“Equifax”). [D.E. 146]. For
the reasons set forth below, Plaintiffs motion is denied in part and granted in part.
Background
This action was filed by pro se Plaintiff, John M. Custin, alleging constitutional and
statutory violations in connection with the process of applying for unemployment benefits
following his termination of employment with Walmart in April 2010. See generally Third Am.
Compl., D.E. 38. Plaintiffs five applications for unemployment benefits to the New Jersey
Department of Labor (NJDOL) were denied, as were Plaintiffs appeals of those determinations
with the agency’s first appellate level, the Appeals Tribunal, and the agency’s final appeal level,
the Board of Review. Id
Plaintiff filed suit in this Court against the Commissioner of the
NJDOL, Harold Wirths, three officials who sat on the Board of Review, Joseph Sieber, Gerald
Yarbrough, and Jerald Maddow (collectively, “State Defendants”), the current and former United
States Secretary of Labor, and the Assistant Secretary of Employment and Training Administration
(collectively, “Federal Defendants”). Id

j

1

Case 2:12-cv-00910-KM-MAH Document 168 Filed 02/08/17 Page 2 of 5 Page!D: 1683
- 67a On January 31, 2014, Judge McNulty granted the Federal Defendants’ motion to dismiss
Plaintiffs Third Amended Complaint. D.E. 82. On March 22, 2016, upon the State Defendants’
motion, Judge McNulty dismissed with prejudice all of Plaintiffs claims based on alleged
violations of the Eighth Amendment and the Social Security Act, and dismissed with prejudice all
claims against Defendant NJDOL. D.E. 130. However, Judge McNulty denied the State
Defendant’s motion as it pertained to Plaintiffs claims based on alleged violations of the Due
Process Clause of the Fourteenth Amendment. Id Thus, Plaintiffs claims against individual
Defendants Wirths, Sieber, Yarbrough, and Maddow, which allege violations of Plaintiffs due
process rights are currently still viable in this action. The claims alleging violations of the Due
Process Clause of the Fourteen Amendment, as articulated in Plaintiffs Third Amended
Complaint, include (1) failing to provide Plaintiff with a copy of all documents used in his
hearings; (2) failing to notify Plaintiff of his appellate rights, (3) failing to provide proper notice
of hearings, and (4) failing to consider key evidence necessary for Plaintiffs appeal. Third Am.
Compl. |2-14.
From February 2016 to May 2016, Plaintiff served a total of six document subpoenas on
NJDOL-WD, NJDOL-UI, and Equifax, a human resources contracting company, seeking
information pertaining to his claims. See PI.’s Mot. to Compel, D.E. 146. Specifically, Plaintiff
sought, from non-party NJDOL-WD: (1) the notice mailed to Plaintiff for a hearing with the Board
of Review scheduled for March 26, 2012, (2) the “complete record on appeal submitted to the
Board of Review,” for appeal dated July 15, 2010, for docket numbers 284 and 329, (3) the
“minutes and recording of the appeal proceeding of the Board of Review,” appeal dated July 15,
2010, for docket numbers 284 and 329, and (4) a “list of all claimants for the [NJDOL] scheduled
telephone hearing[s] in which there was an issue of monetary ineligibly in regard to a claim for UI
benefits between the dates of January 2012 [to] March 2012 and January 2016 and March 2016.
See Subpoenas, D.E. 151. From non-party NJDOL-UI, Plaintiff sought: (5) any document
indicting that NJDOL provided prior notice to Plaintiff regarding evidence that was to be used
against Plaintiff at the June 28, 2010 hearing. Id From non-party Equifax, Plaintiff sought: (6)
any documents showing which “records were sent to any party.. .in regard to the UI claim of Ms.
Teresa Goral.” Id.
Both NJDOL-WD and NJDOL-UI failed to respond to the subpoenas in any way.
Equifax, through its corporate counsel, responded to Plaintiffs subpoena by indicating that it
would not produce any documents identified in the subpoena without a court order, as the
documents requested were considered “confidential.” Exh. B. to Pl.’s Mot. to Compel, D.E. 1463.
On July 14, 2016, Plaintiff filed the present motion to compel compliance with his
subpoenas. D.E. 146. None of the non-parties subject to the subpoenas filed opposition to the
motion to compel. However, Defendants filed a three-page opposition letter asserting that since
the claims against the NJDOL had been dismissed in their entirety, the information sought was not
relevant to the remaining claims against the individual Defendants. Defs.’ Opp’n, D.E. 148.
Furthermore, Defendants argued that the records were confidential under the statute that governs
the administration of the unemployment benefits, N.J.S.A. 43: 21-11(g). Id

2

Case 2:12-cv-00910-KM-MAH Document 168 Filed 02/08/17 Page 3 of 5 PagelD: 1684
- 68aDiscussion
Federal Rule of Civil Procedure 45(d)(2)(B)(I) sets forth the procedure by which this Court
may compel compliance with a subpoena, stating that “[a]t any time, on notice to the commanded
person, the serving party may move the court for the district where compliance is required for an
order compelling production or inspection.”
The permissible scope of discovery under Rule 45 is the same as under Rule 26(b), which
provides that “[p]arties may obtain discovery regarding any nonprivileged matter that is relevant
to any party’s claim or defense ... Relevant information need not be admissible at the trial if the
discovery appears reasonably calculated to lead to the discovery of admissible evidence.” Fed. R.
Civ. P. 26(b)(1). Where the subpoenaing party shows the documents sought to be relevant, “the
resisting non-party must ‘explain why discovery should not be permitted.’” Biotechnology Value
Fund. L.P.v. Celera Corp.. 2014 WL4272732, *1 (D.N. J. Aug. 28, 2014) (citing Miller v. Allstate
Fire & Cas. Ins. Co.. 2009 WL 700142 (W.D. Pa. Mar. 17, 2009)). The Court, in assessing the
reasonableness of a subpoena, should balance several competing factors including: “(1) relevance,
(2) the need of the party for the documents, (3) the breadth of the document request, (4) the time
period covered by it, (5) the particularity with which the documents are described, (6) the burden
imposed, and (7) the subpoena recipient’s status as a nonparty to the litigation.” Id at *2 (internal
citations omitted).
Based on this framework, each discovery request contained in Plaintiff s
subpoenas will be discussed in turn below.
I.

The notice mailed to Plaintiff for a hearing scheduled with the Board of Review
scheduled for March 26, 2012.

Plaintiffs operative complaint alleges that Board of Review members violated his due
process rights for failing to provide proper notice of Plaintiff s hearings. As such, the existence
or nonexistence of a notice for Plaintiffs hearing is clearly relevant to Plaintiff s claim.
Defendants argue that this record is confidential because under N.J.S.A. 43: 21-11(g), "All
records, reports and other information obtained from employers and employees under this chapter,
except to the extent necessary for the proper administration of this chapter, shall be confidential
and shall not be published or open to public...and shall not be subject to subpoena or admissible
in evidence in any civil action." Id However, because the statute clearly only protects
“information obtained from employers and employees,” a hearing notice is not considered
confidential. See Paff v. New Jersey Dept, of Labor. Bd. of Review. 379 N.J. Super. 346, 356357 (App. Div. 2005).
Therefore, Plaintiffs motion to compel compliance with his request for production of the
hearing notice is hereby GRANTED.
II.

The “complete record on appeal submitted to the Board of Review,” for appeal
dated July 15, 2010, for case numbers 284 and 329.

Plaintiffs operative complaint alleges that Board of Review members violated-tus
procedural due process rights by upholding the Appeals Tribunal’s decision “despite the fact that
3

Case 2:12-cv-00910-KM-MAH Document 168 Filed 02/08/17 Page 4 of 5 PagelD: 1685
- 69a the [Appeals] Tribunal submitted an incomplete ‘record on appeal’” which excluded key evidence
necessary for the appeal. Third Am. Compl. f2-14. As such, the record on appeal submitted to
the Board of Review would clearly be relevant insofar as it is “reasonably calculated to lead to the
discovery of admissible evidence to proving Plaintiffs claim.” Fed. R. Civ. P. 26(b)(1).
Again, Defendants argue that this material is protected by N.J.S.A. 43: 21-11(g). Defs.’
Opp’n, D.E. 148. Because the statute only applies to “records, reports and other information
obtained from employers and employees,” the NJDOL shall provide to Plaintiff any responsive
records which are not considered confidential under the statute.
Furthermore, for any material that the NJDOL deems confidential under the statute, the
agency must produce a sworn statement of agency personnel “setting forth in detail the following
information: (1) the search undertaken to satisfy the request; (2) the documents found that are
responsive to the request; (3) the determination of whether the document or any part thereof is
confidential and the source of the confidential information; [and] (4) a statement of the agency's
document retention/destruction policy and the last date on which documents that may have been
responsive to the request were destroyed.” See Paff v. New Jersey Dept, of Labor. 392 N. J. Super.
334, 341 (App. Div. 2007). The sworn statement must also have attached to it “an index of all
documents deemed by the agency to be confidential in whole or in part, with an accurate
description of the documents deemed confidential.” Id Therefore, Plaintiffs motion to compel
compliance with his request for production of the record of his appeals is hereby GRANTED.

III.

The “minutes and recording of the appeal proceeding of the Board of Review,”
for appeal dated July 15, 2010, for case numbers 284 and 329.

As stated above, Plaintiffs operative complaint alleges that Board of Review members
violated his procedural due process rights by upholding the Appeals Tribunal’s decision “despite
the fact that the [Appeals] Tribunal submitted an incomplete ‘record on appeal’” which excluded
key evidence necessary for Plaintiffs appeal. Third Am. Compl. 1J2-14. As such, “the minutes
and recording of the appeal to the Board of Review” would be relevant insofar as it is “reasonably
calculated to lead to the discovery of admissible evidence to proving Plaintiffs claim.” Fed. R.
Civ. P. 26(b)(1).
As explained above, the NJDOL must provide any responsive documents which are not
deemed confidential under N.J.S.A. 43-21-11(g). For any documents the NJDOL deems
confidential, the agency must provide Plaintiff with the sworn statement of agency personnel and
index of confidential documents, as described above. Therefore, Plaintiffs motion to compel
compliance with his request for production of the “minutes and recording” of his appeal is hereby
GRANTED.

IV.

A “list of all claimants” scheduled for NJDOL telephone hearings “in which there
was an issue of monetary ineligibly in regard to a claim for [unemployment
insurance] benefits between the dates of January 2012 and March 2012 and
January 2016 and March 2016.”
4

Case 2:12-cv-00910-KM-MAH Document 168 Filed 02/08/17 Page 5 of 5 PagelD: 1686
- 70a -

Plaintiffs complaint alleges violations of his due process rights in connection with the
process of applying for unemployment benefits with the NJDOL Board of Review. Because
Plaintiffs claims are unique to him, information regarding other claimants’ processes is not to his
claim, and therefore, not discoverable. Therefore, Plaintiffs motion to compel compliance with
this request is DENIED.

V.

Any document indicting that NJDOL provided prior notice to Plaintiff regarding
evidence that was to be used against Plaintiff at the June 28, 2010 hearing.

Plaintiffs operative complaint alleges that the Board of Review members violated his due
process rights by failing to provide Plaintiff with a copy of all documents used in his hearings. As
such, the existence or nonexistence of these notices would be relevant insofar as it is “reasonably
calculated to lead to the discovery of admissible evidence to proving Plaintiff s claim.” Fed. R.
Civ. P. 26(b)(1).
As explained above, because this request does not ask for information “obtained from
employers and employees,” the information is not confidential and therefore, Plaintiffs request to
compel compliance with this document demand is hereby GRANTED.

VI.

Records from Equifax indicating which “records were sent to any party... in
regard to the [unemployment insurance] claim of Ms. Teresa Goral.”

In his moving papers, Plaintiff fails to articulate why records relating to another person’s
unemployment insurance claim would be relevant to his claims. Because plaintiff s claims are
unique to him, insofar as they allege violations of his due process rights in connection with the
process of applying for unemployment benefits, information regarding another claimant’s claim is
not relevant and therefore, not discoverable. Therefore, Plaintiffs motion to compel compliance
with this request is DENIED.

Conclusion
Upon consideration of the parties’ submissions and the applicable law, Plaintiffs motion
to compel compliance with his subpoenas [D.E. 146] is DENIED IN PART AND GRANTED
IN PART.
So Ordered,
/s Michael A. Hammer
UNITED STATES MAGISTRATE JUDGE

5

6/6/2020

CM/ECF LIVE - U.S. District Court for the District of New Jersey-Person Address

- 71a Full docket text for document 187:
TEXT ORDER: As discussed during the November 15, 2017 telephone conference, on or before December 15,
2017, Plaintiff shall submit an item-by-item list of all remaining discovery requests to Defendants. After each such
item, Plaintiff shall provide a brief explanation of that item's relevance to the claims remaining in the case.
Defendant shall respond on an item-by-item basis, on or before January 15, 2018. So Ordered by Magistrate Judge
Michael A. Hammer on 11/15/2017. (MAH)
PACER Service Center
Transaction Receipt
06/06/2020 10:25:39
PACER
Login:

jc9953

Client Code:

Description:

History/Documents

Search
Criteria:

2:12-cv-00910-KMMAH

Billable
Pages:

1

Cost:

0.10

https://ecf.njd.uscourts.gov/cgi-bin/HistDocQry.pl7107385064088129-L_ShowDktTxt_1-0-270635-187-512-

1/1

Case 2:12-cv-00910-KM-MAH Document 196 Filed 03/06/18 Page 1 of 1 PagelD: 1856
- 72aUNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
JOHN M. CUSTIN,
Civil Action No. 12-910 (KM) (MAH)

Plaintiff,
v.

ORDER
HAROLD J. WIRTHS, et al.,
Defendant.

This Matter, having come before the court by way of Plaintiff s letter dated February 20,
2018 [D.E. 194] and Defendant’s letter dated March 5, 2018 [D.E. 195];
and for good cause shown:
IT IS ON THIS 6th day of March 2018,
ORDERED that Plaintiffs remaining written discovery demands are denied as moot, as
Defendants’ counsel has represented, as an officer of the court, that Defendants have produced
all responsive documents; and it is further
ORDERED that fact discovery shall remain open until April 30, 2018; and it is further
ORDERED that Plaintiff shall submit to a deposition in New Jersey. Plaintiff shall
notify Defendants by March 16, 2018 of three (3) proposed dates for his deposition. If Plaintiff
fails to comply, Defendants shall notify the Court by March 23, 2018 and the Court will set a
date. To the extent that Plaintiff seeks reimbursement or an advance for travel expenses
associated with his deposition, that request is denied because Plaintiff is a party and therefore not
entitled to reimbursement.
/s Michael A. Hammer
UNITED STATES MAGISTRATE JUDGE

Case 2:12-cv-00910-KM-MAH Document 218 Filed 06/12/18 Page 1 of 4 PagelD: 2131
- 73a NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY

JOHN M. CUSTIN,

Civ. No. 12-910 (KM)
Plaintiff,
MEMORANDUM & ORDER

v.
HAROLD J. WIRTHS, et al.,
Defendants.

KEVIN MCNULTY. U.S.D.J.:
The plaintiff, John M. Custin (“Custin”) appeals (ECF no. 198) from a
discovery order of Magistrate Judge Michael A. Hammer.
The standard of review of such a nondispositive order is well established:
If a party objects to a magistrate judge's order regarding a
nondispositive matter, the district court “must consider timely
objections and modify or set aside any part of the order that is
clearly erroneous or is contrary to law.” LdL; 28 U.S.C. §
636(b)(1)(A). This standard requires the District Court to review
findings of fact for clear error and to review matters of
law de novo. Haines v. Liggett Grp. Inc., 975 F.2d 81,91 (3d Cir.
1992).
Equal Employment Opportunity Comm'n v. City of Long Branch, 866 F.3d 93, 99
(3d Cir. 2017). See also Fed. R. Civ. P. 72(a); L. Civ. R. 72.1(c)(1)(A). Where the
appeal seeks review of a matter within the core competence of the Magistrate
Judge, such as a discovery dispute, this Court will defer to the Magistrate
Judge's discretion. See Cooper Hospital/Univ. Med. Ctr. v. Sullivan, 183 F.R.D.

1

Case 2:12-cv-00910-KM-MAH Document 218 Filed 06/12/18 Page 2 of 4 PagelD: 2132
- 74a 119, 127 (D.N.J. 1998j; Deluccia v. City of Paterson, No. 09-703, 2012 WL
909548, at *1 {D.N.J. March 15, 2012).1
There have been multiple rounds of repetitive discovery demands by the
plaintiff, to which the defendant has responded. In an attempt to impose order,
Judge Hammer required plaintiff to submit an itemized list of all outstanding
discovery requests, and directed the defendants to respond, which they did.
The plaintiff then filed an additional 45 requests for admission, 39
interrogatories and 13 requests for production of documents.
Defendants objected, primarily on the grounds that the requests were
vague and unintelligible, that they were not addressed to defendants in their
individual capacities (as required by prior rulings), and requested information
already produced. (ECF no. 192) Another exchange of letters and objections
followed. (ECF nos. 194, 195, 197) Most pertinently, in a letter dated March 5,
2018, counsel for the State defendants represented that all relevant documents
had been produced, repeated their demand for a deposition of the plaintiff, and
objected to plaintiffs demand that the defendants advance travel costs and
legal fees. (ECF no. 195)
Judge Hammer then entered the Order that is the subject of this appeal.
That Order provides as follows:
This Matter, having come before the court by way of
Plaintiffs letter dated February 20, 2018 [D.E. 194] and
Defendant’s letter dated March 5, 2018 [D.E. 195];
and for good cause shown:
IT IS ON THIS 6th day of March 2018,

•
The standard of review of nondispositive matters has sometimes been referred
to as abuse of discretion. As a practical matter, it makes little difference, because
abuse-of-discretion review incorporates plenary review of legal questions and dearerror review of factual questions. See Koon v. United States, 518 U.S. 81, 100 (1996) (a
court “by definition abuses its discretion when it makes an error of law”); Doeblers'
Pennsylvania Hybrids, Inc. v. Doebler, 442 F.3d 812, 819 (3d Cir. 2006) (abuse of
discretion may encompass “a clearly erroneous finding of fact, an errant conclusion of
law, or an improper application of law to fact”).
2

Case 2:12-cv-00910-KM-MAH Document 218 Filed 06/12/18 Page 3 of 4 PagelD: 2133
- 75a ORDERED that Plaintiffs remaining written discovery
demands are denied as moot, as Defendants' counsel has
represented, as an officer of the court, that Defendants have
produced all responsive documents; and it is further
ORDERED that fact discovery shall remain open until April
30, 2018; and it is further
ORDERED that Plaintiff shall submit to a deposition in New
Jersey. Plaintiff shall notify Defendants by March 16, 2018 of three
(3) proposed dates for his deposition. If Plaintiff fails to comply,
Defendants shall notify the Court by March 23, 2018 and the
Court will set a date. To the extent that Plaintiff seeks
reimbursement or an advance for travel expenses associated with
his deposition, that request is denied because Plaintiff is a party
and therefore not entitled to reimbursement.
(“Order", ECF no. 196)
Deference “is especially appropriate where the Magistrate Judge has
managed this case from the outset and developed a thorough knowledge of the
proceedings." Lithuanian Commerce Corp., Ltd. v. Sara Lee Hosiery, 177 F.R.D.
205, 214 (D.N.J. 1997) (internal quotations omitted); see Deluccia, 2012 WL
909548, at *1 (same). This is just such a matter. This case, filed in 2012, has
long been under the management of Magistrate Judge Hammer, who is
thoroughly familiar with the proceedings, the parties, and the issues.
Defense counsel represented more than once that all responsive
documents had been produced. The plaintiff expresses disbelief, but offers
nothing concrete. The Magistrate Judge is moreover empowered to place
reasonable limits on discovery. Given that all document discovery had been
produced and (as Judge Hammer noted) discovery was not yet closed, I see no
error of any kind in his order.

3

Case 2:12-cv-00910-KM-MAH Document 218 Filed 06/12/18 Page 4 of 4 PagelD: 2134

- 76a ORDER
For the reasons set forth above,
IT IS this IIth day of June, 2018
ORDERED that the plaintiffs appeal (ECF no. 198) is DENIED, and the
Order of the Magistrate Judge (ECF no. 196) is AFFIRMED.

r.
ON. KEVIN MCNULTY,

4

J.

Case 2:12-cv-00910-KM-MAH Document 219 Filed 08/20/18 Page 1 of 3 PagelD: 2135
- 77a UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

JOHN M. CUSTIN,
Plaintiffs,
Civil Action No. 12-910 (KM) (MAH)
v.
HAROLD J. WIRTHS, et al.,

ORDER

Defendants.

This matter, having come before the Court by way of Plaintiff s motion to compel
Defendants to provide responsive answers to discovery [D.E. 213] and Plaintiffs motion seeking
leave to increase the number of interrogatories allowed under Rule 33 [D.E. 214];,i

i

By way of background, the Undersigned instructed Plaintiff to “submit an item-by-item
list of all remaining discovery requests to Defendants.” See November 15, 2017 Order, D.E.
187. In accordance with that Order, Plaintiff submitted a 48-page list of his remaining discovery
requests on December 14, 2017. See D.E. 189. On February 12, 2018, Defendants filed their
responses to Plaintiffs list. See D.E. 192. The Undersigned issued a Text Order on February 14,
2018, noting that Defendants had served Plaintiff with its responses to Plaintiffs discovery
requests, and “it therefore appearing that the parties have served and responded to any written
discovery in this matter[.]” See D.E. 193.
On February 20, 2018, Plaintiff filed a letter stating that “although the Defendants
physically responded they did not respond responsively as required by [the Federal Rules of
Civil Procedure].” See D.E. 194. On March 5, 2018, Defendants filed a letter in response,
representing that “any documents in Defendants’ possession that are relevant to the limited
remaining issues in this case ... have already been produced.” See March 5, 2018 Letter, D.E.
195. On March 6, 2018, the Undersigned denied as moot Plaintiffs remaining written discovery
demands as outlined in his February 20, 2018 letter [D.E. 194], noting that “Defendants’ counsel
has represented, as an officer of the court, that Defendants have produced all responsive
documents[.]” See March 6, 2018 Order, D.E. 196. On March 16, 2018, Plaintiff filed an appeal
of this Order, see D.E. 198.
The District Judge denied Plaintiffs appeal on June 12, 2018, noting that the defense
counsel represented more than once that all responsive documents had been produced, and that
the Magistrate Judge is empowered to place reasonable limits on discovery. See Memorandum
and Order, D.E. 218.
~ ’
——

Case 2:12-cv-00910-KM-MAH Document 219 Filed 08/20/18 Page 2 of 3 PagelD: 2136
- 78a and Defendants having opposed these motions [D.E. 217], arguing that the discovery at
issue in both motions is the subject of Plaintiff s appeal of the Undersigned’s Order [D.E. 196]
denying Plaintiffs remaining written discovery demands, see D.E. 198;
and the District Judge having denied Plaintiffs appeal, see D.E. 218;
and the Court finding that Plaintiffs motion to compel merely restates the same requests
already considered by this Court in the Undersigned’s March 6, 2018 Order [D.E. 198] and
upheld by the District Judge [D.E. 218];2
and the Court also finding that Plaintiffs motion to increase the number of
interrogatories relies on conclusory statements and fails to set forth why the increased number of
interrogatories are reasonably necessary or relevant;3

2 Plaintiffs motion specifically seeks an order compelling the Defendants to provide
responsive answers to Plaintiffs December 14, 2017 discovery requests. It is clear from the
record, however, that this Court has, on more than one occasion, determined the Defendants’
responses were sufficient and denied Plaintiffs request for more complete responses. In his
February 20, 2018 letter to the Court [D.E. 194], the Plaintiff argued that all of the Defendants’
discovery responses were deficient. The Undersigned considered the argument and denied
Plaintiffs remaining written discovery requests as moot in light of the fact that the Defendants
represented that they had produced all responsive documents. See March 6, 2018 Order, D.E.
197. Additionally, Plaintiffs appeal of the Undersigned’s decision was denied by the District
Judge. Plaintiffs instant motion requests the same relief despite the Court already ruling on this
issue, but Plaintiff fails to articulate any new basis for the Court to reconsider its prior ruling.
3 Plaintiff states that he requests more interrogatories “to obtain discovery regarding nonprivileged matters that are relevant to the claims or defenses in this civil action.” Plaintiff
contends that his request is not unreasonably cumulative or duplicative because there are
“several complex issues” in this matter, and he did not have the opportunity to obtain answers to
his interrogatories due to the Defendants’ failure to provide meaningful answers to Plaintiffs
interrogatories and Admissions. However, as noted earlier, Plaintiffs argument that Defendants
failed to respond to his interrogatories is without merit. The Undersigned and the District Judge
have determined that Defendants have sufficiently responded to Plaintiffs demands. Moreover,
the Undersigned found, and the District Judge agreed, that Plaintiffs remaining written
discovery demands were denied as moot. Plaintiffs motion to increase the number of
interrogatories appears to ignore the Court’s many rulings on the issue of further written
discovery.
To the extent Plaintiff argues that new discovery uncovered by the subpoenas “may raise

Case 2:12-cv-00910-KM-MAH Document 219 Filed 08/20/18 Page 3 of 3 PagelD: 2137
- 79a and for no good cause shown:
IT IS on this 20th day of August 2018,
ORDERED that Plaintiffs motions to compel [D.E. 213] and increase the number of
interrogatories [D.E. 214] are denied.

/s Michael A. Hammer
UNITED STATES MAGISTRATE JUDGE

a whole new set of claims[,]” Plaintiff fails to point to any specific discovery to support this
claim. Nor has Plaintiff otherwise provided any support beyond conclusory statements for his
motion to increase the number of interrogatories. The Court therefore finds that Plaintiff has not
shown that these additional interrogatories are not duplicative or cannofbe*obtainediTomrother—
sources more convenient, less burdensome, or less expensive.

Case 2:12-cv-00910-KM-MAH Document 229 Filed 05/22/19 Page 1 of 4 PagelD: 2212
- 80aUNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

JOHN M. CUSTIN,
Plaintiff,

Civil Action No. 12-910 (KM) (MAH)

v.

ORDER
HAROLD J. WIRTHS, et al.,
Defendant.
This matter having come before the Court pursuant to an Order requiring each party to
submit a status report setting forth the status of the litigation and all tasks that remain to be
completed [D.E. 224];
and Defendants having filed a status report on May 3, 2019 [D.E. 225];
and Plaintiff having also filed a status report on that date [D.E. 226];
and Defendants having replied to Plaintiffs status report on May 10, 2019 [D.E. 227];
and Plaintiff having responded to Defendant’s reply [D.E. 228];
and the Court having reviewed the parties’ submissions;
and Defendants’ status report representing that there is “... no discovery remaining to be
completed[,]” Defs. Status Report, May 3, 2019, D.E. 225, at 1;
and, as such, it appearing that Defendants’ request that the Court enter a briefing schedule
setting forth deadlines by which any dispositive motions must be filed, id. at 2;
and Plaintiffs status report representing that he will seek leave to file a Fourth Amended
Complaint adding multiple new Defendants and new allegations, PI. Status Report, May 3, 2019,
D.E. 226, at 1;

Case 2:12-cv-00910-KM-MAH Document 229 Filed 05/22/19 Page 2 of 4 PagelD: 2213
-81aand Plaintiffs status report further representing that he “ .. . may file a Motion to Show
Cause enforcing the stipulation of facts[,]” id.',
and Plaintiffs status report further representing that “[o]n April 12, 2018, [he] lawfully
served upon the Defendants’ attorney ... Rule 34 Fifth Request for the Production of
Documents, Rule 33 ‘Fifth Set of Interrogatories’, and Rule 36 ‘Sixth Request for Admissions[,]’
which was before the April 30, 2018, fact discovery deadline set forth in this Court’s March 6,
2018, Order [D.E. 196], id.;
and Plaintiffs status report further representing that he has not received responses to
those written discovery demands, id.;
and the Court observing that Plaintiff filed a Third Amended Complaint on August 6,
2013 [D.E. 38], nearly six years ago;
and the Court further observing that the deadline to file any motion to amend was June 1,
2013, see Pretrial Scheduling Order, March 4, 2013, D.E. 20, and Plaintiff never sought
extension of that deadline, nor has Plaintiff provided the Court with any good cause as to why he
should be permitted to file such a motion at this late stage in the litigation;
and to the extent that Plaintiff seeks an Order from this Court compelling Defendants to
respond to his “Rule 34 Fifth Request for the Production of Documents, Rule 33 ‘Fifth Set of
Interrogatories’, and Rule 36 ‘Sixth Request for Admissions[,]’” PI. Status Report, May 3, 2019,
D.E. 226, at 1, the Court has already ruled on same;

1 On March 6, 2018, this Court entered an Order [D.E. 196] denying as moot Plaintiff s
remaining written discovery demands because Defendants’ counsel had represented, as an officer
of the court, that Defendants had produced all responsive documents. Plaintiff appealed this
Court’s March 6, 2018, ruling to District Judge Kevin McNulty [D.E. 198]. District Judge
McNulty denied Plaintiffs appeal and affirmed this Court’s ruling [D.E. 218].---------

1

\
)

V

Case 2:12-cv-00910-KM-MAH Document 229 Filed 05/22/19 Page 3 of 4 PagelD: 2214
- 82a IT IS on this 22nd day of May 2019,
ORDERED that, to the extent that Plaintiff seeks leave to file a Fourth Amended
Complaint adding multiple new Defendants and new allegations, that request is denied; and it is
further
ORDERED that, to the extent that Plaintiff seeks an Order from this Court compelling
Defendants to respond to his “Rule 34 Fifth Request for the Production of Documents, Rule 33
‘Fifth Set of Interrogatories’, and Rule 36 ‘Sixth Request for Admissions[,]’” PI. Status Report,
May 3, 2019, D.E. 226, at 1, that request is denied;2 and it is further
ORDERED that, as fact discovery is now closed, Defendants’ request to file a
dispositive motion is granted; and it is further
ORDERED that any motion for summary judgment shall be filed by June 21, 2019, with
opposition thereto being due by July 1, 2019, and any reply thereto being due by July 8, 2019.

s/Michael A. Hammer
UNITED STATES MAGISTRATE JUDGE

Plaintiff seems to believe, and accordingly argue, that the April 30, 2018, deadline for
fact discovery allowed him to serve additional written discovery requests until that date. See PI.
Reply Letter, May 7, 2019, D.E. 228, at 1 (“Plaintiff lawfully served . .. discovery requests on
4/12/2018 . .. well before the April 30th deadline set for the conclusion of fact discovery ...”).
That is incorrect. The Court denied his additional, written discovery demands on March 6, 2018
[D.E. 198]. To the extent that Plaintiff seeks reconsideration of the Court’s March 6, 2018,
Order denying his written discovery demands, Plaintiff fails to show any intervening change in
controlling law, evidence not previously available, or any clear error of law or manifest injustice.
See Carmichael v. Everson, 2004 U.S. Dist. LEXIS 11742 (D.N.J. May 21, 2004) (noting that
the three grounds for relief for a motion for reconsideration are: “(1) an intervening change in
controlling law has occurred; (2) evidence not previously available has become available; or (3)
it is necessary to correct a clear error of law or prevent manifest injustice.”).
2The~Court need ribtTddress'Plaintiff s'requestthathe“T-rmayfilea-Motion-toShow—
Cause enforcing the stipulation of facts[,]” as such is merely hypothetical at this point.

Case 2:12-cv-00910-KM-MAH Document

’ Filed 02/05/16 Page 1 of 2 PagelD: 1101

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
Civil Action No. 12-910 (KM)

JOHN M. CUSTIN,
Plaintiff,
v.

HAROLD J. WIRTHS, et al.,
ORDER
Defendants.

This matter having come before the Court on various correspondence submitted by the
parties pertaining to the completion of written discovery and the Plaintiffs request to extend the
deadline for discovery [see, e.g.„ D.E. 115, 116, 119, 124];
and the Court having reviewed the correspondence;
and it appearing that the Scheduling Order entered on November 5, 2015 [D.E. 108]
required Defendant to respond to Plaintiffs discovery requests by November 23, 2015;
and it further appearing that although more than two months have passed since expiration
of that deadline, Defendant has failed to produce written discovery to Plaintiff;
and it appearing that Plaintiff requests an extension of the deadline to complete
discovery, and Defendant does not object to the request;
and for good cause shown;
IT IS on this 5th day of February 2016,
ORDERED that:

1

Case 2:12-cv-00910-KM-MAH Document 125 Filed 02/05/16 Page 2 of 2 PagelD: 1102

1. Defendant will serve all outstanding written discovery on Plaintiff on or before
March 7, 2016. Failure to comply may result in the imposition of sanctions for
failure to comply with the Court’s Orders under Fed. R. Civ. P. 16 and 37.
2. All fact discovery shall be completed by May 5, 2016.
3. As set forth in the November 5, 2015, Order, neither party will introduce expert
testimony in this matter.
4. It appearing that (a) the Attorney General of New Jersey is not authorized to accept
service on behalf of the individual defendants, (b) Plaintiff cites no caselaw or
authority for the proposition that this Court can order the Attorney General to accept
service for the individual defendants, (c) location information for two of the three
defendants is available on the Department of Labor website, and (d) Plaintiff has not
adequately explained his own efforts to locate and serve the individual defendants or
why he cannot do so, the Court denies Plaintiffs request that the Court order the
Attorney General of the New Jersey to accept service from the U.S. Marshal on
behalf of the individual defendants.
5. The in-person status conference scheduled for February 29, 2016 is adjourned until
May 3, 2016 at 11:00 a.m.

s/Michael A. Hammer________
United States Magistrate Judge

2

a

Additional material
from this filing is
available in the
Clerk's Office.

